<html>
<title> - DOE MANAGEMENT AND OVERSIGHT OF ITS NUCLEAR WEAPONS COMPLEX: LESSONS OF THE Y-12 SECURITY FAILURE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                  DOE MANAGEMENT AND OVERSIGHT OF ITS 
     NUCLEAR WEAPONS COMPLEX: LESSONS OF THE Y-12 SECURITY FAILURE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2013

                               __________

                           Serial No. 113-13




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-292                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
PETE OLSON, Texas                    KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
CORY GARDNER, Colorado               JERRY McNERNEY, California
MIKE POMPEO, Kansas                  BRUCE L. BRALEY, Iowa
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             EDWARD J. MARKEY, Massachusetts
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    G.K. BUTTERFIELD, North Carolina
CORY GARDNER, Colorado               KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)









                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8

                               Witnesses

Sandra E. Finan, Brigadier General, USAF, Commander, Air Force 
  Nuclear Weapons Center and Former Acting Chairman of Defense 
  Nuclear Security, National Nuclear Security Administration 
  (NNSA).........................................................     9
    Prepared statement...........................................    11
Daniel B. Poneman, Deputy Secretary, U.S. Department of Energy, 
  Accompanied by Neile L. Miller, Acting Undersecretary for 
  Nuclear Security and Acting Administrator, NNSA................    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................   181
Richard A. Meserve, President, Carnegie Institution for Science..    56
    Prepared statement...........................................    58
    Answers to submitted questions...............................   191
C. Donald Alston, Major General, USAF (Retired)..................    57
    Prepared statement...........................................    58
    Answers to submitted questions...............................   191
David C. Trimble, Director, Natural Resources and Environment 
  Team, Government Accountability Office.........................    83
    Prepared statement...........................................    85
    Answers to submitted questions...............................   193

                           Submitted Material

Document binder..................................................   116

 
DOE MANAGEMENT AND OVERSIGHT OF ITS NUCLEAR WEAPONS COMPLEX: LESSONS OF 
                       THE Y-12 SECURITY FAILURE

                              ----------                              


                       WEDNESDAY, MARCH 13, 2013

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Burgess, Harper, 
Gardner, Johnson, Barton, Upton (ex officio), DeGette, Braley, 
Lujan, Tonko, Green, and Waxman (ex officio).
    Staff present: Carl Anderson, Counsel, Oversight; Charlotte 
Baker, Press Secretary; Mike Bloomquist, General Counsel; Annie 
Caputo, Professional Staff Member; Karen Christian, Counsel, 
Oversight; Andy Duberstein, Deputy Press Secretary; Kirby 
Howard, Legislative Clerk; Peter Kielty, Deputy General 
Counsel; Peter Spencer, Professional Staff Member, Oversight; 
Tiffany Benjamin, Democratic Senior Counsel; Brian Cohen, 
Democratic Staff Director, Oversight and Investigations, and 
Senior Policy Advisor; Elizabeth Letter, Democratic Assistant 
Press Secretary; and Stephen Salsbury, Democratic Special 
Assistant.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning. We convene this hearing to 
continue the committee's examination of Department of Energy's 
management and oversight of its nuclear weapons complex, three 
national weapons laboratories and five production and testing 
facilities. These eight sites are responsible for the 
stewardship of our Nation's nuclear weapons stockpile.
    DOE, through its National Nuclear Security Administration, 
or NNSA, spends billions of dollars each year performing 
hazardous operations to maintain and secure nuclear weapons and 
weapons materials. This work is performed by contractors at the 
Department's nuclear weapons sites under the supervision of 
federal officials and requires strict adherence to strong 
safety standards. The supremely sensitive nature of the 
materials and technologies also requires the Department to 
ensure an extraordinary level of security to safeguard these 
nuclear sites and operations.
    Our attention today will focus mainly on the lessons for 
the Department from the security and oversight failures that 
occurred last summer at the Y-12 National Security Complex, in 
Oak Ridge, Tennessee, and what DOE is doing to address these 
lessons.
    At its hearing this past September, this subcommittee began 
to examine preliminary information about the failures at Y-12. 
We learned how these failures allowed three protestors at 
around 4:20 a.m. one morning last July to penetrate security 
fences and detection systems and deface the walls of the 
facility storing highly enriched uranium. We learned about 
inexcusable maintenance problems and compensatory security 
measures to work around broken equipment and chronic false 
alarms. We learned about the inadequate response by the 
protective guard force. And most to the point of our hearing 
today, we learned about the failure of contractor governance 
and federal oversight to identify and correct the multiple 
early indicators of Y-12's security, maintenance, and 
communications systems breakdowns.
    The DOE Inspector General's testimony at that hearing 
revealed that federal site officials did not do anything to 
address security maintenance backlogs because NNSA's contractor 
governance system meant ``they could no longer intervene.'' 
This perhaps is the most incomprehensible aspect of this 
troubling situation. It appears that, due to a ``hands off'' 
federal contracting policy, we had ineffective federal security 
oversight at Y-12, and potentially at other sites around the 
complex.
    Information produced since September confirms that a strong 
oversight approach to security has not been paramount at DOE, 
particularly since the Department instituted certain reforms to 
its oversight in 2009 and 2010. The stated purpose of these 
reforms was to give contractors flexibility to tailor and 
implement safety and security programs ``without excessive 
federal oversight or overly prescriptive departmental 
requirements.'' Whatever the intent, the reforms in practice 
were interpreted by federal site officials to mean they 
couldn't intervene when security problems arose.
    We will discuss today the findings of a revealing Task 
Force assessment, which was commissioned in response to Y-12 
and released to the administrator in November. Led by Air Force 
Brigadier General Sandra Finan, who will testify on the first 
panel this morning, the Task Force found that issues at Y-12 
were part of a larger pattern of deficiencies in NNSA's 
security-related functions and activities across board. 
Notably, the Task Force found no clear lines of accountability 
at NNSA, and broken security policy process, an ``eyes on, 
hands off'' governance approach that weakened federal 
oversight, and a federal organization ``incapable of performing 
effective security performance assessment'' of the contractors 
operating the sites.
    We will hear testimony from GAO on our second panel that 
many of these deficiencies are identical to those identified at 
NNSA 10 years ago. It appears the Department instituted reforms 
that actually may have exacerbated the deficiencies, turning 
``eyes on, hands off'' into eyes closed, hands off.
    Deputy Secretary Poneman and acting NNSA Administrator 
Miller I trust will explain to us today how and when the agency 
will implement the Task Force's recommendations and exactly how 
they will communicate clear and appropriate priorities for 
safety and security in their governance of the sites. Let me 
welcome you both, and General Finan.
    Our second panel provides broader perspective on security 
culture at the Department. Along with GAO, we will hear from 
General Donald Alston and former NRC Chairman Richard Meserve, 
two of three contributors to an analysis requested by the 
Secretary of Energy about the physical security structure at 
the DOE.
    The experience and perspective of these witnesses should 
help us to put the security deficiencies in the broader context 
of the oversight and management challenges confronting DOE. In 
the end we should identify a path forward for the Department to 
ensure strong oversight and zero tolerance for failures. The 
risks to millions of people, and indeed geopolitics are too 
important for anything less.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    Good Morning. We convene this hearing to continue the 
Committee's examination of the Department of Energy's 
management and oversight of its nuclear weapons complex--three 
national weapons laboratories and five production and testing 
facilities. These eight sites are responsible for the 
stewardship of our nation's nuclear weapons stockpile.
    DOE, through its National Nuclear Security Administration 
(or NNSA), spends billions of dollars each year performing 
hazardous operations to maintain and secure nuclear weapons and 
weapons materials. This work is performed by contractors at the 
Department's nuclear weapons sites under the supervision of 
federal officials and requires strict adherence to strong 
safety standards. The supremely sensitive nature of the 
materials and technologies also requires the Department to 
ensure an extraordinary level of security to safeguard these 
nuclear sites and operations.
    Our attention today will focus mainly on the lessons for 
the Department from the security and oversight failures that 
occurred last summer at the Y-12 National Security Complex, in 
Oak Ridge Tennessee--and what DOE is doing to address these 
lessons.
    At its hearing this past September, this Subcommittee began 
to examine preliminary information about the failures at Y-12. 
We learned how these failures allowed three protestors at 
around 4:20 a.m. one morning last July to penetrate security 
fences and detection systems and deface the walls of the 
facility storing highly enriched uranium.
    We learned about inexcusable maintenance problems and 
``compensatory'' security measures to work around broken 
equipment and chronic false alarms. We learned about the 
inadequate response by the protective guard force.
    And most to the point of our hearing today, we learned 
about the failure of contractor governance and Federal 
oversight to identify and correct the multiple early indicators 
of Y-12's security, maintenance, and communications systems 
breakdowns.
    The DOE Inspector General's testimony at that hearing 
revealed that federal site officials did not do anything to 
address security maintenance backlogs because NNSA's contractor 
governance system meant ``they could no longer intervene.'' 
This perhaps is the most incomprehensible aspect of this 
troubling situation. It appears that, due to a ``hands off'' 
federal contracting policy, we had ineffective federal security 
oversight at Y-12--and potentially at other sites around the 
complex.
    Information produced since September confirms that a strong 
oversight approach to security has not been paramount at DOE, 
particularly since the Department instituted certain reforms to 
its oversight in 2009 and 2010. The stated purpose of these 
reforms was to give contractors flexibility to tailor and 
implement safety and security programs ``without excessive 
federal oversight or overly prescriptive departmental 
requirements.'' Whatever the intent, the reforms in practice 
were interpreted by federal site officials to mean they 
couldn't intervene when security problems arose.
    We will discuss today the findings of a revealing Task 
Force assessment, which was commissioned in response to Y-12 
and released to the Administrator in November. Led by Air Force 
Brigadier General Sandra Finan, who will testify on the first 
panel this morning, the Task Force found that issues at Y-12 
were part of a larger pattern of deficiencies in NNSA's 
security-related functions and activities across board.
    Notably, the Task Force found no clear lines of 
accountability at NNSA, a broken security policy process, an 
``eyes on, hands off'' governance approach that weakened 
Federal oversight, and a federal organization ``incapable of 
performing effective security performance assessment'' of the 
contractors operating the sites.
    We will hear testimony from GAO on our second panel that 
many of these deficiencies are identical to those identified at 
NNSA ten years ago. It appears the Department instituted 
reforms that actually may have exacerbated the deficiencies--
turning ``eyes on, hands off'' into eyes closed, hands off.
    Deputy Secretary Poneman and acting NNSA Administrator 
Miller I trust will explain to us today how and when the agency 
will implement the Task Force's recommendations and exactly how 
they will communicate clear and appropriate priorities for 
safety and security in their governance of the sites. Let me 
welcome you both, and General Finan.
    Our second panel provides broader perspective on security 
culture at the Department. Along with GAO, we will hear from 
General Donald Alston and former NRC Chairman Richard Meserve, 
two of three contributors to an analysis requested by the 
Secretary of Energy about the physical security structure at 
the DOE.
    The experience and perspective of these witnesses should 
help us to put the security deficiencies in the broader context 
of the oversight and management challenges confronting DOE. In 
the end we should identify a path forward for the Department to 
ensure strong oversight and zero tolerance for failures. The 
risks to millions of people, and indeed geopolitics are too 
important for anything less.

                                #  #  #

    Mr. Murphy. I would now like to recognize Ranking Member 
Diana DeGette for her opening statement.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, as you said, a little over 7 months ago, an 
82-year-old nun and two middle age men breached the security 
perimeter surrounding the highly-enriched uranium facility at 
the Y-12 National Security Complex in Oak Ridge, Tennessee. In 
the wake of that incident, this committee had a hearing toward 
exactly how such an absurd and dangerous breach of security 
could happen. Today, I want to thank you for having this 
follow-up hearing to learn what has happened to address the 
security breakdowns that resulted in the breach, and to make 
sure that something like that never happens again.
    I want to thank you, Mr. Chairman, for continuing our 
longstanding bipartisan interest in this subcommittee in 
ensuring that our nuclear facilities are safe and secure.
    Our past oversight over the nuclear complex has made a 
significant difference, raising standards for worker safety, 
ensuring lab safety, ensuring security standards remain 
accountable to those who work within the labs and who live 
nearby, and forcing NNSA to make significant changes when 
things go awry. But I got to tell you, as I have told you 
before, both on and off the record, every few years we go 
through this same thing. There is an incident, there is an 
aggressive response from NNSA, time passes without an incident, 
and everybody begins to relax. Labs start to complain about 
overly burdensome paperwork and oversight. In response, 
expectations and rules are relaxed, and then, of course, 
without fail, another incident occurs. I am tired of this 
pattern and we should all be tired of this pattern, because it 
really does affect our national security.
    Today, I am hoping to hear how NNSA and DOE have responded 
to last year's call to action, not just at Y-12, but across the 
NNSA complex. But more importantly, I want to hear what they 
are doing to ensure that we don't have to have any more 
hearings about security breaches or safety incidents at these 
sites. I guess my view is, it is time to break this pattern.
    I want to commend the agencies for acting promptly to 
address the issues exposed at Y-12 in the wake of the July 28 
breach. However, I continue to be deeply concerned about 
oversight within NNSA. Last month, GAO again released its high 
risk list, identifying agencies and program areas that are at 
high risk due their vulnerabilities to fraud, waste, abuse, and 
mismanagement. Just as it has been since 1990, contract 
management at NNSA is on this list. Assessments conducted after 
last year's security breach show that NNSA dubious honor is 
well-deserved. A February, 2013, DOE Inspector General report 
described a ``eyes on, hands off'' approach to contractor 
oversight, meaning federal employees felt they could monitor 
but not intervene in contractor activities, even if they 
suspected an issue. Recent assessments conducted by DOE's 
Office of Health, Safety, and Security showed contractor 
communication problems, both between different contractors at 
the Y-12 site, and between the contractor and federal employees 
at Y-12, and other independent experts observed a Y-12 culture 
that completely failed to adequately focus on security.
    As terror effects become more real, and as our enemies 
become more sophisticated, we just can't afford to take this 
``eyes on, hands off'' approach to security. Tens of thousands 
of people work at these labs and facilities, and we owe it to 
them and to the communities around the facilities and the 
American people to ensure that they are safe and secure. To do 
that, we have got to closely examine and monitor the nuclear 
complex, promote transparency when it comes to how DOE and NNSA 
are using their resources, and demand accountability from 
everybody involved. We have to insist that standards are simply 
never relaxed because people don't like filling out paperwork. 
In short, we have to demand more.
    There has been no shortage of assessments of what should be 
done for the complex, and in the coming months, I am sure we 
can expect more of these. As we move forward, we have to 
continue to make sure that DOE and NNSA are keeping nuclear 
safe sites safe and adapting and responding to the ever-
changing security challenges at the nuclear complex.
    So Mr. Chairman, I am happy that you are continuing the 
grant tradition of this subcommittee in oversight of DOE and 
NNSA, and I look forward to working with you as we move along 
in the future. I yield back.
    Mr. Murphy. I thank the Congresswoman from Colorado.
    I now recognize the chairman of the full committee, Mr. 
Upton, for an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well thank you, Mr. Chairman.
    Today's hearing represents another important step in this 
committee's ongoing oversight to ensure that the Department of 
Energy's management of nuclear security enterprise can 
successfully protect taxpayer dollars, ensure public health and 
worker safety, and in fact, safeguard our national security 
assets. We know from our past work, as well as from the recent 
and very troubling security failures at Y-12, that management 
reform is necessary to ensure safe and secure operations. The 
challenge has been learning the right lesson from past 
failures, and then successfully implementing the right fixes.
    Time and again over the last 14 years, we have witnessed 
dramatic failures in safety and security, as well as taxpayer 
waste across the nuclear complex. Despite that poor track 
record, in '09 DOE proposed increased economy and less 
oversight as the appropriate corrective actions. We know, 
though, from past experiences and the Y-12 breach that strong 
and consistent federal management bolstered by truly 
independent oversight is, in fact, necessary. DOE leadership 
must be clear that safety and security come first. They go hand 
in hand. This is the lesson that we have learned from the 
civilian nuclear industry. As safety improves, so does 
performance. Absent an imbedded safety culture, there is 
erosion of safety practices, leading to outages, delays, and 
other operational impacts. The same is true for security.
    The Y-12 security breach demonstrated not only a failure at 
the site, but also a failure of DOE and NNSA management. We can 
trace some of that failure to the initiative launched by DOE 
leadership 3 to 4 years ago to rely more on contractor's self-
assessments and define success as productivity gained. 
Secretary Chu himself wanted DOE to be viewed as a ``partner 
and asset,'' his words for the contractors, sending the signal 
that oversight of these contractors would not be a priority. 
Members on this committee warned the Secretary in 2010 that 
such initiatives, however well-intentioned, were 
misinterpreting the lessons and the past and could, in fact, 
backfire, and that track record speaks for itself.
    As this committee, with oversight responsibility for DOE, 
we must ensure that current and future DOE leadership learns 
the right lessons. That starts today when we hear about the 
plans to fix and sustain improvements in safety and security 
oversight.
    I yield the balance of my time to Dr. Burgess.
    [The prepared statement of Mr. Upton follows:]

             Prepared statement of Hon. Chairman Fred Upton

    Today's hearing represents another important step in this 
committee's ongoing oversight to ensure the Department of 
Energy's management of the nuclear security enterprise can 
successfully protect taxpayer dollars, ensure public health and 
worker safety, and safeguard our national security assets.
    We know from both our past work, as well as from the recent 
and very troubling security failures at Y-12, that management 
reform is necessary to ensure safe and secure operations. The 
challenge has been learning the right lessons from past 
failures and then successfully implementing the right fixes.
    Time and again over the past 14 years, we have witnessed 
dramatic failures in safety, security, and taxpayer waste 
across the nuclear complex. Despite this poor track record, in 
2009 DOE proposed increased autonomy and less oversight as the 
appropriate corrective actions.
    We know, though, from past experience and the Y-12 breach 
that strong and consistent federal management, bolstered by 
truly independent oversight, is necessary. DOE leadership must 
be clear that safety and security come first.
    Safety and performance go hand-in-hand. This is the lesson 
we've learned from the civilian nuclear industry. As safety 
improves, so does performance. Absent an embedded safety 
culture, there is erosion of safety practices, leading to 
outages, delays, and other operational impacts. The same is 
true for security.
    The Y-12 security breach demonstrated not only a failure at 
the site, but also a failure of DOE and NNSA management. We can 
trace some of this failure to the initiatives launched by DOE 
leadership three and four years ago to rely more on contractor 
self-assessments, to reduce ``burdensome'' oversight, and to 
define success as productivity gains. Secretary Chu himself 
wanted DOE to be viewed as a ``partner and asset'' for the 
contractors, sending a signal that oversight of these 
contractors would not be a priority.
    Members on this committee warned the Secretary in 2010 that 
such initiatives--however well-intentioned--were 
misinterpreting the lessons of the past and could backfire. 
DOE's track record speaks for itself.
    As the committee with oversight responsibility for DOE, we 
must ensure that current and future DOE leadership learn the 
right lessons. This will start today, when DOE/NNSA explains 
that it has serious plans for fixing and sustaining improvemes 
in safety and security oversight.

                                #  #  #

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the chairman of the full committee--
chairman of the subcommittee for calling this important 
hearing. This is an important follow-up on the committee's work 
in the last Congress into the astonishing security lapses that 
occurred at one of our most important, and purportedly most 
secure nuclear weapons facilities in the country.
    You know, you look at the continuum, the range of failure 
and it goes from totally unacceptable to an abject failure, and 
this is at one of our country's most important facilities that 
stores highly enriched uranium for our defenses and for our 
national security. At last September's hearing, I voiced my 
concern over the lack of accountability. We need to know who at 
Department of Energy was held accountable. Who lost their job? 
Who lost their job because of this epic failure of security and 
oversight?
    Now, General Finan's task force, I think, has put it very 
succinctly that there is a pervasive culture of tolerating the 
intolerable and accepting the unacceptable. I fear that 
statement has really become the operational motto of the 
Executive Branch, where failure after failure is met with a 
shrug and not much more. Had this incident been perpetrated by 
someone with more sinister motives, the break-in could have had 
catastrophic results for that region and for our Nation. So I 
continue to be concerned that our security at our Nation's most 
critical facilities is not being given the priority that it 
deserves.
    Chairman Murphy and I met with General Finan, and I thank 
you, General, for taking the time for that meeting--this was a 
month ago--to discuss some of the observations that her task 
force has made in the security lapses and the oversight 
failures at NNSA. So certainly, we look forward to hearing from 
you this morning as to where the NNSA stands in its oversight 
of these facilities.
    This investigation is a prime example of the good work that 
this committee can do when it works in a bipartisan manner. The 
security of our Nation's weapons facilities is not an issue 
that divides or should divide along party lines. We are all in 
favor of safe, secure areas where our nuclear stockpiles can be 
held, ready to protect our Nation, and safe from predators.
    With that, Mr. Chairman, I will yield back.
    Mr. Murphy. Thank the gentleman. I will now recognize for 5 
minutes the ranking member of the full committee, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman, for recognizing me and 
for holding this hearing.
    The Y-12 incident was embarrassing for DOE and NNSA, the 
National Nuclear Security Administration. It exposed serious 
issues within the security organization at NNSA. I appreciate 
our witnesses being here today, and I hope they will help us 
identify and address these concerns.
    The security concerns we will hear about today must be 
addressed. We cannot let our nuclear facilities become targets 
for our foreign enemies and terrorists. We need to invest in 
the safety and security of these facilities, both financially 
and by ensuring they have a culture that is focused on keeping 
our nuclear legacy materials and the people who work with them 
safe and secure.
    I appreciate DOE's actions in the wake of the Y-12 
incident. The Department has taken this incident seriously and 
developed a thoughtful approach to addressing concerns that 
have been identified, but there is still more work left to be 
done. DOE needs to ensure that it exercises strong oversight 
over both its contractors and its federal employees at NNSA 
sites, and as noted by General Finan today, DOE needs to ensure 
that there is a clear line of authority from the Secretary down 
to the contractor, security guards at every site.
    Over the years, many people have advocated many different 
structures for NNSA, but the assessments made after the Y-12 
incident show that the problem is not too much DOE efforts 
oversight, it is too little. The problem is that contractors 
didn't take their responsibilities to the government or their 
workers seriously. The federal employees failed to exercise 
appropriate authority over the contractor counterparts, and 
that NNSA's culture didn't adequately focus on security.
    These problems can be resolved by effective oversight by 
DOE by requiring that contractors become accountable and 
transparent, and by ensuring that the federal officials who 
oversee these contractors take a hands on approach to 
oversight.
    In the past year, some have suggested that NNSA needs more 
autonomy. In fact, last year's House-passed National Defense 
Authorization Act included language stripping DOE's authority 
over some NNSA sites. Given what we have seen in the last 7 
months, that approach makes absolutely no sense. The Y-12 
breach made it abundantly clear that NNSA is not doing enough 
on its own. All the findings and recommendations that have come 
from independent evaluators of the Y-12 breach, including 
NNSA's own task force, show that NNSA needs more oversight, not 
less. NNSA sites house some of our most dangerous nuclear 
assets. We need vigorous oversight by DOE to ensure that these 
nuclear materials are appropriately protected.
    Mr. Chairman, again, thank you for holding this hearing. I 
look forward to more opportunities to check in on NNSA's 
progress. I yield back the balance of my time.
    Mr. Murphy. The vice chairman yields back, and now we will 
go over our witnesses today.
    With us today is Brigadier General, United States Air 
Force, Sandra Finan. I hope I am pronouncing that right. I 
believe I am, right? Thank you for being here. She is the 
Commander of the Air Force Nuclear Weapons Center and former 
Acting Chief of Defense Nuclear Security, National Nuclear 
Security Administration.
    Also joining her is Daniel B. Poneman, Deputy Secretary, 
U.S. Department of Energy. Thank you so much for being with us 
today, sir, and also accompanied by Neile Miller, the Acting 
Administrator of NNSA. I hope I have all the title correct.
    As you know, the testimony you are about to give is subject 
to Title XVIII, Section 1001 of the United States Code. When 
holding an investigative hearing, this committee has a practice 
of taking testimony under oath. Do you have any objections to 
testifying under oath?
    The chair then advises you that under the rules of the 
House and rules of the committee, you are entitled to be 
advised by counsel, if you desire to be advised by counsel 
during your testimony today. OK, they all say no.
    Then in that case, if you would please rise and raise your 
right hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. Noting for the record that all the 
witnesses responded in the affirmative, I now call upon each of 
them to give a 5-minute summary and their written statement.
    Starting off with you, General Finan, thank you for being 
here today.

    TESTIMONY OF SANDRA E. FINAN, BRIGADIER GENERAL, USAF, 
 COMMANDER, AIR FORCE NUCLEAR WEAPONS CENTER AND FORMER ACTING 
CHAIRMAN OF DEFENSE NUCLEAR SECURITY, NATIONAL NUCLEAR SECURITY 
ADMINISTRATION (NNSA); AND DANIEL B. PONEMAN, DEPUTY SECRETARY, 
  U.S. DEPARTMENT OF ENERGY, ACCOMPANIED BY NEILE L. MILLER, 
     ACTING UNDERSECRETARY FOR NUCLEAR SECURITY AND ACTING 
                      ADMINISTRATOR, NNSA

                  TESTIMONY OF SANDRA E. FINAN

    General Finan. Chairman Murphy, Ranking Member DeGette, 
distinguished members of the committee, thank you for the 
opportunity to discuss the study I conducted on the National 
Nuclear Security Administration's federal security 
organization----
    Mr. Murphy. Could you pull your mike closer to yourself 
there, if it is on, too?
    General Finan. Is that better?
    Mr. Murphy. Yes, much better. Thank you.
    General Finan. OK.
    Thank you for the opportunity to discuss the study I 
conducted on the National Nuclear Security Administration's 
federal security organization and assessment model. Although I 
am no longer assigned to the NNSA, I am pleased to share our 
observations based on our 90-day study.
    In the aftermath of the July 28, 2012, security incident at 
the National Nuclear Security Administration's Y-12 National 
Security Complex, the leadership of the NNSA and the Department 
of Energy took action to address the security failures at Y-12. 
The initial information gathered revealed that the issues at Y-
12 were part of a larger pattern of security program management 
deficiencies within NNSA. These security issues prompted the 
NNSA administrator to commission a task force to analyze the 
current federal NNSA security organizational structure and 
security oversight model and recommend possible improvements. 
The NNSA Administrator directed the Task Force to analyze the 
current NNSA security organizational structure and recommend 
possible improvements, and to analyze the current NNSA security 
oversight model and mechanisms to determine what seams existed 
and what structures could be implemented to better ensure that 
the issues are found and fixed before they become problems.
    While other reviews were aimed at diagnosing the root 
causes of the Y-12 event, the NNSA administrator's direction 
called for this Task Force to focus on the a path forward 
within the federal NNSA organization. Under my leadership, the 
task force consisting of NNSA, DOE, and military specialists 
conducted extensive document reviews and interviewed federal 
managers and staff as well as a selection of contractor 
security managers and others across the NNSA security 
organization. The task force collected and analyzed 
information, identified issues, and suggested a revised 
organizational structure and assessment model.
    While we highlighted negative aspects of the NNSA security 
organization and assessment model, the task force found many 
great people on the NNSA security staffs. They are clearly 
dedicated, skilled, and hard-working and want to get the 
security mission done right. Unfortunately, NNSA security 
personnel have seen themselves thwarted by lack of management 
support and feel obstructed by some of their peers. Their 
difficulties were compounded by the absence of a workforce 
strategy to recruit, retain, and develop a cadre of talented, 
knowledgeable and experienced security professionals. Thus, it 
is all the more encouraging that these personnel, almost 
without exception, genuinely care about doing good work. Their 
continued strong desire to build a successful security 
organization is a hopeful sign for the future.
    Mr. Chairman, with your permission, I will submit the 
remainder of my testimony for the record. It contains the 
findings of the task force.
    [The prepared statement of General Finan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Murphy. Thank you. I appreciate that.
    Mr. Poneman?

                 TESTIMONY OF DANIEL B. PONEMAN

    Mr. Poneman. Chairman Murphy, Ranking Member DeGette, and 
members of the subcommittee, thank you for the invitation to 
appear before you today to provide the subcommittee details on 
the actions the Department has taken or will take to strengthen 
the security of the Nuclear Weapons Complex in the wake of the 
July, 2012, Y-12 incident. We appreciate the interest and 
engagement of this committee and recognize the important 
oversight role that you fulfill. The Secretary and I recognize 
the severity of the problem that led us to this point, and we 
have acted swiftly to identify and address the issues it 
revealed.
    Since the Y-12 incursion, several major actions have taken 
place to improve security immediately and for the long term. 
Let me tell you about a few of them.
    We restructured the contracts at Y-12 to integrate security 
into the line of command at the M&O contractor. The protective 
force contractor was terminated, and a new M&O contractor has 
been selected to manage the Y-12 site, providing an opportunity 
for new leadership and to improve the Y-12 security culture. We 
held accountable both the senior federal and contractor 
management personnel at headquarters and the site, removing 
them from their positions. The Department's Chief of Health, 
Safety, and Security conducted an independent security 
inspection of Y-12 security operations, which include rigorous 
force-on-force performance testing, as well as no notice and 
short notice limited scope performance testing activities as 
directed by the Secretary. HSS will be conducting a follow-up 
review in April to examine the status of the implementation of 
corrective actions. The Secretary also directed HSS to conduct 
immediate extent of condition assessments of all sites in 
Category I nuclear materials across the DOE complex, to 
identify any immediate security issues and to follow up with a 
full security inspection, including force-on-force exercises to 
assure effective security measures are being implemented at 
those sites.
    NNSA conducted an immediate after-action report to identify 
causes, issues to be addressed and recommended action, and you 
just heard very eloquently summarized the findings of those 
reports.
    In order to address these institutional problems that have 
been revealed, we are continuing to embrace and implement the 
findings of General Finan's report, which you just heard her 
describe.
    Because we believe that we need fresh perspectives from 
disinterested parties to consider broader and long-term 
responses to this incident, Secretary Chu requested three 
independent experts in this area to conduct a strategic review 
of the entire DOE security architecture, with a particular 
emphasis on Y-12, and I see that you are joined by two of the 
three of these eminent experts here today. Each of them 
provided thoughtful advice on the DOE's nuclear security 
structure, specifically, all Category I nuclear facilities. We 
are now reviewing and discussing their advice on how to improve 
security at Y-12, and across the nuclear enterprise.
    The series of personnel and management changes I have 
described today were made to provide effective security at the 
Y-12 site, and across the DOE complex. We are also working to 
carry out the structural and cultural changes required to 
secure all Category I nuclear materials at this and all other 
DOE and NNSA facilities, and in this respect, I welcome the 
comments of--in your opening remarks from members of this 
subcommittee about the need to introduce cultural changes so 
that we are not back in the same situation again. That is 
absolutely critical, and I think as we get into the discussion, 
what you hear in terms of what we are implementing from General 
Finan's report will put us in the right direction in that 
respect.
    Our management principles hold that our mission is vital 
and urgent. Nowhere is that more true than here. The security 
of our Nation's nuclear material and technology is a core 
responsibility of the Department, in support of the President 
and in defense of the Nation. The incident at Y-12 was 
unacceptable and served as an important wakeup call for our 
entire complex. The Department is taking aggressive actions to 
ensure the reliability of our nuclear security programs across 
the entire DOE enterprise and will continue to do so.
    In that effort, the Department looks forward to working 
with this subcommittee to ensure the security of the Nation's 
nuclear materials. I would be pleased, of course, to answer any 
questions from members of this subcommittee, and request the 
balance of my statement be submitted for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Poneman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Murphy. And so will the balance of your statement will 
be submitted for the record.
    We understand, Ms. Miller, you do not have an opening 
statement, so we will go right into some questions. I will 
recognize myself for 5 minutes.
    First of all, let me just say that I appreciate your 
candor. Nothing is better for leaders than to step forward and 
say mistakes have been made, taking full responsibility, and 
taking definitive action. I thank you for that. We are 
certainly hoping this never happens again, and we hope that the 
report and recommendations are going to be fully implemented 
and continue to be reviewed.
    So let me start with you, General Finan. Your task force 
identified the serious weaknesses in the federal capability to 
evaluate contractor performance at the Nuclear Weapons Complex. 
The NNSA administrator commissioned your report. I am correct 
in that?
    General Finan. Yes, sir.
    Mr. Murphy. It is also correct that the recommendations are 
directed at the administrator, not the Secretary of Energy, am 
I correct?
    General Finan. That is correct. It was all NNSA-focused.
    Mr. Murphy. Thank you. I just want to make sure we are 
following the right chain here.
    Mr. Poneman, as Deputy Secretary of Energy, you and the 
Secretary set high level policy direction and safety and 
security standards for NNSA's mission, but it is the 
responsibility of the NNSA to arrange a structure to accomplish 
these goals. That is up to the administrator, am I correct?
    Mr. Poneman. It is up to the administrator, of course, 
subject to, as you just said, the leadership of the Secretary 
and the Deputy Secretary.
    Mr. Murphy. And something you will continue to monitor as 
well?
    Mr. Poneman. Absolutely.
    Mr. Murphy. Thank you.
    Ms. Miller, you are now the NNSA Acting Administrator.
    Ms. Miller. That is right.
    Mr. Murphy. Is it correct that you were Principal Deputy 
Administrator at NNSA as it implemented its safety and security 
reform efforts in 2010?
    Ms. Miller. I became the Principal Deputy Administrator in 
August of 2010.
    Mr. Murphy. OK. Do you agree with the findings of General 
Finan's report?
    Ms. Miller. I completely agree with them.
    Mr. Murphy. Thank you.
    General Finan states that NNSA must clearly and 
consistently emphasize the importance of security. Do you agree 
with her statement?
    Ms. Miller. I absolutely agree with them.
    Mr. Murphy. Thank you.
    Do you believe that NNSA's leadership has been inconsistent 
in the message it sends to the field about security emphasis?
    Ms. Miller. I believe it has been inconsistently 
communicated, yes. Absolutely.
    Mr. Murphy. Were you aware of the inconsistent messages on 
security prior to Y-12?
    Ms. Miller. I would say that I was aware that because the 
chief of Defense Nuclear Security, as well as the chief of 
Defense Nuclear Safety reported directly to the administrator 
and not to me. I would say I was aware of the difficulty and 
the inconsistencies in communicating policy and decisions for 
security and many other areas from the headquarters 
organization to the field offices.
    Mr. Murphy. Well yes, and since part of the purpose of this 
Committee on Oversight is to make sure that we are 
understanding lessons learned, but what you don't measure, you 
can't manage. What you don't admit, you can't act on. Were 
there some lessons you learned from this, some things that you 
should do differently in terms of the process as we move 
forward?
    Ms. Miller. Mr. Chairman, I would say two things. First of 
all, there were lessons I had been learning prior to this 
incident that caused us to announce a few weeks before this 
incident, the end of July, that we were changing the way we 
governed our sites. And that is to say, we took the sites from 
within defense programs, our large weapons program, where they 
had been reporting for a number of years and had them now 
directly report to the administrator through an associate 
administrator peer level, the senior management, so that we 
could start to drive accountability and consistency across our 
sites. So that was a measure that I had come to the conclusion 
that organization absolutely had to make to address what I said 
before, which was concern about inconsistencies all over the 
place.
    With regard to post-Y-12 incident, in particular with 
security, I was fortunate to be able to draw upon General 
Finan's recommendations and work with her, as she was part of 
the organization at the time, and others to change the way we 
operate security, both at headquarters and in the field.
    Mr. Murphy. Thank you.
    Last month on February 5 at NNSA, associate administrator 
for management and budget disputed the Inspector General's 
report that Y-12 oversight was ineffective because of the 
``eyes on, hands off'' oversight approach. The officials said 
that the ``eyes on, hands off'' policy never applied to 
security matters and that this was a misperception by some 
federal officials. Ms. Miller, why is an NNSA senior official 
continuing to dispute the impact of the ``eyes on, hands off'' 
policy?
    Ms. Miller. I think the issue is not to dispute the impact. 
I think the point is that we certainly did not set out--and 
again, this predates me, but no one set out to say that 
oversight should not be conducted, that your proper role is not 
to be overseeing all aspects of the contractor's performance. 
What I would say is that, as you yourself mentioned, driving 
that message through a very large organization from the 
administrator through every individual in every layer at every 
site is the big challenge. It is the challenge in security, it 
is the challenge all over the place. It is not a new issue. As 
the ranking member mentioned, we need to break the pattern, and 
that is definitely what the organization is about right now.
    Mr. Murphy. Thank you. Hopefully you will communicate that 
through solidly, because of the extreme concerns about what 
happened.
    I recognize each member for 5 minutes as we go through. 
Next is Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Secretary Poneman, I was intrigued when--first of all, let 
me say, I am impressed and encouraged by the commitment the 
agency has made to not having to come back here next year or 
the year after with some new crisis. I am, both in these 
hearings and some of our off--our side conversations, I do 
believe you have that commitment.
    Secretary Poneman, I wanted to ask you, because you just 
said in your testimony that you are committed to implementing 
some of the aspects of the General's report to make sure that 
we are not back here in a year or two. I wonder if you could 
briefly tell us--if you could give us the highlights of what 
those things are?
    Mr. Poneman. Gladly, Congresswoman DeGette.
    The critical, I think, finding that General Finan's report 
showed was that we had a lack of clarity of line of management 
control and accountability. So what we have done is, under her 
recommendation implemented by Acting Administrator Miller and 
fortunately, before General Finan left us, she was the acting 
head of defense nuclear security, to get this started. We have 
now made sure that under this organization that Ms. Miller just 
introduced of the operations and infrastructure that the 
responsibility to direct security at the site flows down from 
the administrator through that office to the site. The other 
office that had been doing security policy, so-called NA-70, 
had been actually exercising some apparent line management 
authority, which was creating confusion. That function has been 
stripped away. Any line authority has been stripped away from 
NA-70.
    Ms. DeGette. So you think that is the key, having a clear 
chain of--that is the number one? What else?
    Mr. Poneman. Number two is the staff function that that new 
organization--that NA-70 must perform, they need to promulgate 
the policies and perform independent evaluations so it is not 
just the site checking itself.
    Ms. DeGette. OK, independent evaluations. Those are the two 
key things.
    Mr. Poneman. Yes, oversight and a line management.
    Ms. DeGette. Now, another issue--I don't have--we might do 
another round, but--so I want to just go into this other issue 
that I care a lot about, which complaints that the committee 
has heard about overly burdensome oversight stifling the work 
being done at NNSA labs and sites. And what we think--I was 
talking to the chairman about this--is that federal officials 
need to conduct strict oversight of the contractors, or serious 
security problems can fall through the cracks.
    So what I wanted to ask you, General Finan, in your review, 
did you find that the problems you saw within NNSA were caused 
by overly burdensome congressional oversight?
    General Finan. The issues that I found were not caused at 
all by oversight. It was actually caused by lack of oversight, 
and I mean oversight at every level.
    Ms. DeGette. Right, right. So what was the----
    General Finan. It was impacting everything.
    Ms. DeGette. We need to have clear oversight from the top 
down, and as Mr. Poneman says, independent oversight, right?
    General Finan. The burden was actually--when you--we 
created a system that required a whole bunch of paperwork, and 
the paperwork is burdensome, but what we lost in security was 
the ability to see security performance. It was paperwork.
    Ms. DeGette. Yes, there was a bunch of paperwork, but it 
was irrelevant to the core task, right?
    General Finan. Correct.
    Ms. DeGette. Mr. Poneman, do you want to comment on that?
    Mr. Poneman. I thought it was a very apt finding, and the 
misinterpretation of that 2010 reform is exactly on this point. 
We were trying to strip away the excessive paperwork and get to 
the performance testing.
    Ms. DeGette. Right, but did any of the auditor's 
assessments conducted in the wake of the Y-12 incident find 
that it was caused by too much congressional oversight of the 
Y-12 contractors?
    Mr. Poneman. No, ma'am.
    Ms. DeGette. OK. The reason I bring this up is because some 
people try to say oh, we have too much oversight. It seems to 
me when we have these problems over and over again, the problem 
is not too much oversight. The problem is too little effective 
oversight and accountability. Ms. Miller, you are nodding your 
head. Would you agree with that?
    Ms. Miller. Yes, I would definitely agree. It is about 
effectiveness.
    Ms. DeGette. Now, let's see.
    General Finan, can you tell us about the findings of the 
task force with respect to improved oversight of NNSA security 
contractors? You touched on it just very briefly.
    General Finan. Right. The recommendation we are making is 
that we create an NNSA oversight function, because right now, 
in the system as I looked at it a couple of months ago, NNSA 
did not have any oversight capability. They depended on onsite 
federal personnel to analyze contractor performance. But again, 
they were applying the ``eyes on, hands off'' concept and so 
that was varied from site to site. And what happened is that 
you lacked--there was no sense of criticism in this assessment, 
right?
    Ms. DeGette. Right.
    General Finan. You had onsite people who were your really 
only federal ability to look at contractor performance. Well, 
those folks onsite grew up there, they lived there, you know, 
they spent their whole time. They identified with the mission 
and they were really not a very good source of independent 
oversight as to contractor performance.
    Ms. DeGette. Thank you.
    Mr. Poneman and Ms. Miller, do you agree with that?
    Mr. Poneman. Absolutely----
    Ms. Miller. Yes.
    Mr. Poneman [continuing]. And the reforms we described I 
think reflect that finding.
    Ms. DeGette. Thank you.
    Ms. Miller, do you agree with that?
    Ms. Miller. I do.
    Ms. DeGette. Thank you.
    Mr. Murphy. Thank you. Gentlelady yields back.
    I now recognize the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Poneman, in her testimony, General Finan states that 
NNSA must clearly and consistently emphasize the importance of 
security. Unfortunately, here is the consistent message that 
the DOE, NNSA organizations, and contractors were hearing. In 
March of 2010, Secretary Chu stated his vision that he wanted 
DOE to be viewed as a valued partner and asset to contractors. 
He went on to suggest that safety could be ensured with a 
skeleton crew of health and safety experts. Also in March of 
2010, Mr. Poneman, you wrote in the Department's safety and 
security reform plan that success will be measured through 
near-term relief from specific low-value burdensome 
requirements, as well as longer term streamlining of 
requirements that will lead to measurable productivity 
improvements. I note that safety and security did not factor 
into this definition of success. Would you agree that 
statements like these send mixed signals about the Department's 
commitment to safety?
    Mr. Poneman. Congressman, the portion of the document read 
from my document, the genesis of that was to set out a set of 
safety and security objectives, so in fact, that particular 
sentence is out of documents that are precisely intended to 
maximize safety and security. What is unfortunate, what has 
happened is the misinterpretation of that. What we were trying 
to do, sir, is to get rid of the checkbox mentality, just 
looking at paperwork and creating paperwork, get back to 
performance testing, so we could be better, safer, and more 
secure. That is absolutely our objective.
    Mr. Johnson. What are you doing today to ensure consistent 
and clear emphasis on safety importance from the headquarters 
on down?
    Mr. Poneman. Number one, we are, on both safety and 
security, assimilating all of the learnings from reports such 
as General Finan's. Number two, because we have found safety 
culture issues as well as security culture issues, we have 
regular meetings where we assemble the top leadership in the 
Department to check on a continuing basis that this is being 
messaged consistently throughout the complex. One of the major 
challenges, Congressman, that we have found is--as you heard 
with this talk about ``eyes on, hands off''--is the 
misinterpretation, like a kid's game of Telephone, is a 
terrible problem. So it is not enough to promulgate a good 
policy. You have got to continually stay on it, message it, and 
work with your leadership and work with the people in the 
field.
    Mr. Johnson. OK, thank you.
    Ms. Miller, a week or so before the Y-12 incident in July 
of 2012, Mr. Don Cook, NNSA Deputy Administrator for Defense 
Programs, made the following remarks, and I quote, ``With 
regard to the relationship that we have and where we are 
between NNSA and its labs and plants--I didn't say my labs and 
plants, but you can tell I feel that way--getting to the point 
where we have oversight on these, which is eyes on, hands off 
oversight, has been my aspiration for several years and it 
remains so. It was my aspiration when I worked on the lab side 
for many years. General Finan completed that ensuring that the 
right leadership is in the right position is absolutely 
critical to success.'' What are you going to do to make that 
happen, ensure that leadership is sending the right message 
about the importance of safety and security?
    Ms. Miller. Mr. Johnson, sending the right message, in my 
view and after many years of looking at the NNSA mostly from 
outside of it, is a challenge that is not achieved just by 
making sure that people at the top level know what the message 
means. But it is difficult to make sure that every single 
person in the 10,000 people at a given lab or 30,000 throughout 
our complex understand what we are talking about. If we--what 
we are doing at NNSA is working to be able to communicate and 
train and talk to people at every single level to make sure it 
is not going to be misunderstood. We recently changed all of 
our M&O contracts. The performance measures in those contracts 
are all now connected to safety and security so that it is not 
possible to believe that you have performed according to the 
terms of a contract in an area like nuclear weapons if you have 
not also met the performance plans for safety and security. It 
just isn't going to happen.
    So this is a step-by-step throughout the organization. It 
is not just at the top level.
    Mr. Johnson. OK, good.
    One final question, General Finan. First of all, as a 26\1/
2\ year veteran of the Air Force myself, thank you for your 
service and what you have done here.
    A troubling finding in your report is that potentially 
critical management information is not being reported clearly 
to the appropriate decision makers. Would you elaborate on what 
you mean by this?
    General Finan. Yes, sir. As we interviewed people and took 
a look at what was happening, we found out at the lower levels, 
there were people who knew what issues existed out there and 
knew the significance of those issues. But as they attempted to 
rise those issues up to senior levels, they were being 
suppressed. Management at mid levels would suppress it, and so 
in many cases, critical decision information was not making its 
way to the top of the organization.
    Mr. Johnson. OK, thank you for that, and with that, Mr. 
Chairman, I yield back. Thank you.
    Mr. Murphy. OK, gentleman's time is expired, and I will now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    General Finan, you state in your testimony that the 
findings of this task force were very similar to those numerous 
prior reports by other review teams, so my question is, what 
happened to the recommendations of the prior review teams? Were 
they ever implemented? Was the implementation insufficient, or 
is there a larger problem that still needs to be identified?
    General Finan. There is a cultural issue. Those findings, 
as you look at them, you go back to see what people did, you 
will find that there are some actions that were put in place, 
but there was a check the box mentality that said we want to 
get rid of the findings as fast as we can. So they do whatever 
they could to say yes, I have responded to this finding and it 
is gone. And so the things that they changed didn't stick. It 
was just a matter of taking action, checking the box, closing 
the finding, and going on to the next thing. And so what needs 
to happen is all those things need to be taken in aggregate, we 
need to create a roadmap, and then we need to change the 
culture so that we continuously evaluate those things and go 
back and make sure that we don't, year after year, make the 
same mistake and that we are not interested in checking the box 
off, we are interested in changing the way we do business so we 
do it the right way.
    Mr. Tonko. Thank you. There seems to be a theme that runs 
through a number of the task force's observations that cost 
control was a bigger concern for many of the people managing 
the program, the security program, than performance of the 
security mission. This implies there is a real or perceived 
lack of resources to support the security mission fully. Which 
is it, real or perceived?
    General Finan. It is a combination of both. What happened 
was that management had overwhelmingly started to figure out--
they wanted to reduce the cost of security, and so in doing 
that, what they did is they lost sight of the requirements of 
security, and because the two were mixed together, the people 
who determined requirements and the budget were the same 
people. What happened was that they were no longer looking at 
the actual requirements for security. They lost sight of what 
was required in order to adequately secure these materials and 
these sites, and moreover, they lost visibility on the 
important aspect of protecting our operational capability and 
our people. And those items actually got no visibility at all 
and were completely ignored. They thought that if they could do 
the big war, if they could fight the terrorists, they could do 
all the lesser includeds, therefore, they never needed to look 
at lesser includeds. Well, lesser included happened to be a 
protest event, and Y-12 proved that lesser includeds do not--
you cannot do lesser includeds just because you can fight the 
larger issues. So it was a combination of wanting to reduce the 
budget, which is a good thing. We ought to always be efficient, 
but when you lose sight of the requirements, what happened is 
senior leaders at NNSA did not get to make the decision. Do I 
want to fund that requirement or do I want to take the risk? 
The risk was being assumed at lower levels by default rather 
than being made at the senior decision maker level at NNSA.
    Mr. Tonko. Deputy Secretary Poneman--and I thank you for 
that answer--but Deputy Secretary, how much of DOE's budget is 
spent on contractors, your area of the budget?
    Mr. Poneman. The vast majority. I think it is well over 80 
percent, and we can get you a precise number. I think it is on 
the order of 85 percent.
    Mr. Tonko. With that amount, the agency then, is it fair to 
say, is relying on private contractors to implement many key 
security and safety goals?
    Mr. Poneman. Yes, Congressman, going back to the origins of 
the Department, back to shortly after World War II, Atomic 
Energy Commission, this whole model of the so-called management 
and operating contractor, the M&O contractor model puts most of 
the programmatic and security burdens in the hands of 
contractors who were exercising that authority under federal 
oversight.
    Mr. Tonko. So do the contractors then have a conflicting 
bid of incentives here when carrying out their duties?
    Mr. Poneman. There is a risk, Congressman, and in that 
respect, again, one of the many fine findings of General 
Finan's report, I think, shows the way we need to address that 
is the contractor must own and take responsibility for 
security, and in the first instance, must evaluate that under 
their own self-analysis, but that then needs to have a double 
check, first from the headquarters so there is not the onsite 
cozy relationship, so there is some difference and the federal 
oversight is effective, and secondly, from an independent 
organization, the HSS organization, to effectively ensure you 
have a disinterested third party look to make sure that that 
security is being well executed and there are not conflicts of 
interest, and to hold the contractor accountable if they do not 
self-disclose problems in security that they, in fact, find in 
their own forces.
    Mr. Tonko. General Finan, is it possible that contractor 
concerns over cutting costs could have been one of the causes 
of the Y-12 incident at Oak Ridge?
    General Finan. It could have been, and it may have been 
that they had cut back some of their maintenance personnel in 
order to cut costs, and therefore had misprioritized actions, 
so it could be a contributing factor.
    Mr. Tonko. Thank you. With that, I yield back.
    Mr. Murphy. Gentleman's--thank you very much.
    The chair recognizes the chairman emeritus of the committee 
from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, and I appreciate the courtesy of 
letting me ask questions out of order, since I wasn't here at 
the beginning. I appreciate that of my junior members.
    I want to refresh the subcommittee's memory a little bit. 
We have had repeated security incidences at the weapons 
complexes in the national laboratories over the last 20 years. 
We have had tapes lost, we have had materials lost. This latest 
incident, which has been sanitized to call the Y-12 incident, 
three nuns, I think, one fairly elderly, penetrated to the 
deepest security of our weapons complex. A nun, oK, nuns. They 
showed up at one of our hearings and they were in the audience, 
and these were not ninja warrior, flat belly, skulking people. 
These were just ordinary folks who wandered in, so to speak. So 
we have, once again, another task force that is going to try to 
rectify the problems.
    Now, I want to get the players straight. General Finan, you 
are not in the normal chain of command at the Department of 
Energy, is that correct?
    General Finan. I am no longer assigned to the Department of 
Energy. I am back in the Air Force. I was always in the Air 
Force, but----
    Mr. Barton. This report that you have helped to prepare was 
done at the request of DOE, at the request of the then 
administrator, but you were kind of an outside, fresh look 
person, is that correct?
    General Finan. Well, I guess I would call myself an inside 
outsider. By that time, I had been assigned to NNSA for 18 
months, but I was always an Air Force asset. My reporting chain 
runs through the Air Force. I was always an Air Force member, 
but I was assigned to NNSA for 2 years.
    Mr. Barton. OK, now the report that you testified on has 
been presented to the Department of Energy, is that correct?
    General Finan. Yes, sir.
    Mr. Barton. Now I want to go to Deputy Secretary Poneman. 
It used to be the Deputy Secretary is the number two person at 
DOE. Is that still the case?
    Mr. Poneman. Yes, sir.
    Mr. Barton. Are you the chief operational officer at DOE?
    Mr. Poneman. Yes, sir.
    Mr. Barton. OK. So you have read the report----
    Mr. Poneman. Yes, sir.
    Mr. Barton [continuing]. That has been prepared? I have 
read a summary of it. It is fairly damning, but it is pretty 
clear cut in its recommendations. So the bottom line question 
is what are you going to do about it? Are you going to accept 
the recommendations and act on them, or are we going to 
pontificate and fiddle faddle around and not do anything?
    Mr. Poneman. Yes, sir, it is a fine report. It is 
excellent. It is insightful. We embrace it and not only have we 
already accepted and put into practice the recommendations, but 
while we still had the benefit of General Finan's service in 
the Department, we made her Acting Chief of Defense Nuclear 
Security to oversee the beginnings of the implementations.
    Mr. Barton. So she gets to implement the recommendations?
    Mr. Poneman. She had that started, and as she just 
indicated, been reassigned and we are carrying forward from 
that.
    Mr. Barton. One of the recommendations is that you 
eliminate this multiple diverse authority. Is that going to be 
done, centralizing the one line of authority? That is one of 
the primary----
    Mr. Poneman. That, sir, already has been done and the 
further clarification of the role of the other security 
organizations is also underway. We are, as was indicated, also 
taking into account more widely the recommendations from what 
we call the Three Wise Experts about--from whom you will hear 
directly, but the parts that you have heard from General Finan, 
we are already putting into effect.
    Mr. Barton. OK. Now this concept of ``eyes on, hands off'' 
oversight, there seems to be some misunderstanding about that. 
I don't see how that would work anyway.
    Mr. Poneman. I don't either, and I think it is a terrible 
thing that anyone ever thought that that made sense or was the 
policy of the Department. It is absolutely the wrong way to 
think about it.
    Mr. Barton. So we can assume, since you are the number two 
person, that whatever that concept was, it is no longer in use? 
It is gone?
    Mr. Poneman. Yes, we have tried and we will continue, 
because you can't repeat these messages often enough, to be 
very, very clear that the federal oversight is critical and it 
needs to be active and performance-based, and it cannot be 
``eyes on, hands off.'' That would never work.
    Mr. Barton. OK, now my final question, can we be--can you 
assure the committee that the actual security of the weapons 
complex is a first-degree, primary function and it is not 
subject to cost issues? I mean, we want these facilities and 
materials and the people that are operating within those 
facilities to be secure, period, and not secondary to the cost 
of maintaining the security.
    Mr. Poneman. Let me be very clear, Congressman. There is 
nothing more important than the safety and the security of the 
complex. That is our top priority. We will always, as you would 
expect, make sure that we are good stewards of the taxpayer 
resources and not waste money. I don't think that is the 
implication of your question, but we will always make sure that 
we never compromise security for any other derivative 
objective, and the security of that material is paramount.
    Mr. Barton. Thank you, and thank you, Mr. Chairman and the 
other members. I yield back.
    I would love to have a hearing within the next year or two 
where we can pat these people on the back and say you have 
actually done what you said. Things are working. There are 
improvements. Now, I am a skeptic. I doubt we will have that 
hearing, but I certainly hope that we can and I especially want 
to commend Congresswoman DeGette. She has been fighting these 
fights almost as long as I have, and with the same degree of 
fervor and intensity, and I am sure that with Dr. Murphy's 
added vigilance, we might actually get something done. Thank 
you.
    Mr. Murphy. Thank you. We all share sentiments. Gentleman 
yields back.
    Now recognize the gentleman from New Mexico, Mr. Lujan, for 
5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Mr. Poneman and Ms. Miller, before I ask some questions on 
Y-12, I want to speak about something that is very important in 
New Mexico. With the concerns in Washington State where tanks 
at Hanford are leaking radioactive and hazardous waste, I 
understand the Department is considering sending millions of 
gallons of highly radioactive waste to New Mexico to be stored 
at the Waste Isolation Pilot Plant, or WIPP. I would like to 
get your commitment here today that you will work closely with 
the New Mexico delegation, state and local officials, and 
concerned citizens, as you explore whether such a transfer will 
take place and under what conditions?
    Mr. Poneman. Congressman, I can assure you, A, that we 
always take all critical health, safety, environmental issues 
into account, certainly with respect to the 54 million gallons 
and their disposition at Hanford, and we will gladly continue 
to work very closely with this committee and with other members 
of the Congress to make sure what we do is in full consultation 
with you.
    Mr. Lujan. So Mr. Poneman, that is a commitment to work 
with the New Mexico delegation on this issue?
    Mr. Poneman. We will work with this committee and with all 
members of Congress, and any affected state----
    Mr. Lujan. I will interpret that as a yes. I appreciate 
that, sir.
    Has there been discussions that have begun with the State 
of New Mexico on this issue?
    Mr. Poneman. I will defer to Ms. Miller.
    Ms. Miller. The acting Assistant Secretary for 
Environmental Management, Dave Huizenga, has ongoing 
discussions with representatives from the State of New Mexico. 
I recently met with a number of representatives from the State 
of New Mexico, local representatives as well as the governor. 
We did not discuss this issue because this is a pretty new 
development, as you know, but we are in good, close contact 
with the delegation, both locally and certainly as Deputy 
Secretary Poneman said, very willing to work and look forward 
to working with you and the other members of the congressional 
delegation.
    Mr. Lujan. I appreciate that, Ms. Miller. I am one of the 
representatives as well that represents New Mexico, and so I 
would appreciate that very much. I appreciate that.
    And finally, I hope that this will not happen at the 
expense of cleaning up existing sites in New Mexico. I don't 
want to see a slowing down or a decrease in funding in 
environmental management funding. If anything, it should be 
increased to allow more rapid cleanup, especially in Los 
Alamos. And you know, with the true waste issue in New Mexico, 
it is ready to be cleaned up and ready to go, and I hope that 
we can work with you and get a commitment to see what we can do 
to plus up those accounts. I know sequestration is hitting us, 
but it is something that is very important to us.
    Mr. Poneman. Congressman, sequestration is a huge challenge 
for all of us. We have legal, contractual, and moral 
obligations to the state. We take them very, very seriously. I 
have been there several times myself. We will continue to take 
that seriously.
    Mr. Lujan. I appreciate your commitment, Mr. Poneman.
    Mr. Poneman, isn't your head of Health, Safety, and 
Security, or HSS, the person you and the Secretary rely on for 
developing and coordinating security policy and providing 
independent oversight and enforcement?
    Mr. Poneman. That is true.
    Mr. Lujan. Wasn't this a colossal failure as a part of HSS 
in failing to identify and correct the specific security 
weaknesses that were obviously present at Y-12?
    Mr. Poneman. Sir, there were a number of failures. There 
was a January, 2009, report from HSS which, in fact, identified 
some of the deficiencies which you have heard later described 
which, in fact, facilitated this terrible episode on July 28. 
There should have been, as HSS has acknowledged, more rigorous, 
vigorous, and repeated follow-up from those findings, and they 
have--in the consequences in terms of lessons learned from this 
episode, redoubled their commitment under the direction of the 
Secretary to make sure that they follow up on all such findings 
in future. So when they do identify a problem, they stick with 
it until it is resolved.
    Mr. Lujan. With that being said, Mr. Poneman, aren't those 
on the second panel, including reviewers like General Finan, 
who are identifying systemic security problems and recommending 
improvements, doing the job that HSS was supposed to have done?
    Mr. Poneman. Well, it is always good after an episode like 
this to get fresh eyes, and General Finan, because she had this 
unique perspective of being in the system but somewhat apart 
from these specific events, had a unique and invaluable 
perspective. In fact, her own report recommends that in this 
three-layer oversight review, that the HSS is, in fact, that 
third layer of disinterested third party oversight. We will 
hopefully continue to benefit from outside expertise of this 
character, but also make sure we maintain some independence 
within the Department to ensure you don't have conflict of 
interest in overseeing security.
    Mr. Lujan. I appreciate that.
    Mr. Poneman, in your earlier comments made before similar 
hearings, you stated that no federal employees have been 
terminated as a result of the Y-12 breach, that such 
terminations are subject to due process. Since there were 
contract employees that were terminated for cause, the response 
seems to suggest that contract employees don't have the same 
due process protection under the law. Is there any truth to 
that?
    Mr. Poneman. This is--I am glad you asked this question, 
Congressman. Let me clarify this. There was accountability on 
both the federal and the contractor's side. On the federal 
side--and we had to act swiftly and effectively to remove 
anybody who had an involvement in this episode from the chain 
of command. On the federal side, the top three nuclear security 
officials in headquarters were removed from those 
responsibilities. In addition, three members at the site from 
the federal team were either reassigned or removed from their 
positions. And then on the contractor's side, we held 
accountable by making clear to the contractor that they had 
lost our confidence. The three senior--three of the senior 
people on the protective force subcontract and three of the 
senior people on the M&O contractor, we then folded the 
subcontract for security under the M&O contract, made it clear 
we lost confidence in the contractor, and that contractor was 
terminated full stop.
    Now there are additional actions that can be taken with 
respect to individuals that are disciplinary in nature. Our 
first responsibility, as the chairman and ranking member have 
emphasized, is to protect the material, so the first thing we 
did is get anybody who had anything to do with this out of the 
way of possibly protecting material that we now needed to make 
sure we had new people and new processes to effectuate. Other 
disciplinary processes have been underway. Some are still 
continuing, and those are the processes, sir, that I was 
referring to where the due process protections apply to these 
individuals who, like any American, are entitled to due process 
when it comes to termination.
    Mr. Lujan. Thank you. Mr. Chairman, as I yield back, I know 
time is expired, but I appreciate the concerns and the 
statements associated with new culture and leadership and 
changes, and what that means coming forward as we look at the 
future. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you, Mr. Lujan. I let that go on because 
it was a particularly important answer, too. We thank you for 
that answer.
    Now recognize the gentleman from Mississippi, Mr. Harper, 
for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and welcome to each of 
you on what is a very important topic, not only to you, but to 
everyone in Congress. We appreciate the look you are taking at 
this, and of course, how do you convey that security is 
everybody's concern, and always in that situation where you are 
looking, it seems that it was somebody else's responsibility, 
so you have to create that culture that everyone is 
responsible, regardless of their position, and do you feel like 
you are moving things in that direction with NNSA?
    Mr. Poneman. Yes, sir, and your comment, I think, ties in 
well with when the chairman said at the beginning, if you don't 
measure it, you don't manage it. What we have done since the Y-
12 episode is to make sure that in the performance evaluation 
plans for all contracts that safety and security is made a 
constituent part of every programmatic deliverable. So you are 
not actually performing the job if you do it, but you don't do 
it safely or you don't do it securely. So that is how we 
measure and hold people accountable, and so not only are we 
trying to do this through all the cultural teaching that we are 
telling you about, but we are trying to build into the 
structure of the contracts. That is how we hope to avoid keep 
coming back, as Ms. DeGette has suggested, by really building 
it into our system.
    Mr. Harper. And I guess one of the issues would be how do 
you make these security changes or improvements, how do you 
sustain those? You know, I will go back, DOE did a major--a 
comprehensive study back in 2008, and it looked like that was 
great. If those things had perhaps really been sustained, maybe 
we wouldn't have had the Y-12 incident. So I guess what 
confidence should we have and do you have that these changes, 
as a result of this very extensive 90-day evaluation and study, 
will be sustained?
    Mr. Poneman. Congressman, as General Finan's report makes 
clear, even if we have put all the structures in place to be 
successful in a way that we have not succeeded so far, absent 
leadership, it is not going to succeed. So the first way to 
sustain it, sir, is by sustained leadership attention, and I 
can commit to you that that is what we are providing.
    The second thing I would say is, it is not enough simply to 
promulgate this and announce it. We have to continue to work 
with people in the complex at the sites and have a continuous 
flow of information back and forth.
    And the third thing is, people have to feel comfortable 
throughout the site. If they actually have concerns, they have 
to feel free to step forward without any fear of retribution.
    Mr. Harper. Thank you.
    Do either of the other witnesses have anything that you 
care to add? General, anything that you see of how this study--
how you believe it would be sustained in the future? It looks 
great today, and we believe we have done that, but do you see 
anything else, other than what Mr. Poneman has added, that you 
believe would show that we could sustain it?
    General Finan. The key is the leadership, just the Deputy 
Secretary stated, and a culture. Everyone in the organization 
has to understand that each and every one of them are a part of 
security, and that security is a part of the NNSA mission. It 
is not a support item, it is essential to the mission. So it is 
culture and leadership.
    Mr. Harper. Mr. Poneman, the safety and security reform 
plan, if I could read this, stated that the Department's 
contractors maintain an assurance system that provides reliable 
measurement of the effectiveness of their safety management 
systems and facilitates timely corrective actions to systems or 
performance weaknesses. And the same direction was given for 
security systems. The task force found that NNSA relied 
overwhelmingly upon contractor-provided data rather than 
effectively reviewing performance itself. Given the broken 
equipment, security cameras, excessive false alarms at Y-12, 
clearly the contractor did not correct performance weaknesses 
in a timely fashion. And I know you have gone over this, but I 
want to make sure, you believe that relying on contractors to 
provide measurements of their effectiveness is still a sound 
approach?
    Mr. Poneman. I think the system must start because they 
have the line management responsibility with contractor 
reporting and self correcting, but it then needs exactly the 
oversight that General Finan recommended, number one, from the 
nuclear security operation inside NNSA, which is not at the 
site and therefore it is not prone to the coziness that has 
been a source of some concern, and then secondly, with a third 
party independent oversight from the HSS organization.
    Mr. Harper. Each of you, do you believe that today would 
such a breach at Y-12 that occurred in July of 2012, do you 
believe that would occur today?
    Mr. Poneman. No, sir, I do not, and one thing that we did 
immediately, the Secretary directed an extent of condition 
review to be done very quickly to ensure that no similar 
problems existed at any of the other sites that have Category I 
nuclear material in the complex.
    Mr. Harper. I yield back.
    Mr. Murphy. The gentleman yields back.
    The gentleman from Texas is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Murphy. The gentleman Mr. Green from Texas is 
recognized.
    Mr. Green. Different member from Texas.
    I know there was some contract restructuring in 2007, and I 
guess what got my attention on Y-12 and also the Pantex site, 
since that is in north Texas, was that contract restructuring 
ever completed to have one contractor for both sites?
    Mr. Poneman. Yes, sir, we have finished the contract 
consolidation. There is another piece that is optional with 
respect to folding the tridium operations at Savannah River, 
but that part has not----
    Mr. Green. I know on a regular occasion, Pantex--there are 
protesters up there, but it is a long way to get there from 
most urban areas in north Texas, but there has never been any 
similar incidents like at Y-12 at Pantex, has it?
    Mr. Poneman. Not that I am aware of, sir, and in fact, we 
were impressed when we looked after the Y-12 incident at, 
frankly, the contrast and we brought some expertise from Pantex 
to Y-12 to help instill some best practices. For example, the 
practice of repairing cameras very quickly, that was already 
institutionalized at Pantex, and now I am happy to say, all the 
cameras are fixed and our average time to repair cameras now at 
Y-12 is 6.5 hours. So there were some best practices that we 
ported over from Pantex.
    Mr. Green. OK. I worry about impacts on NNSA due to the 
sequester. Deputy Secretary Poneman, can you talk about the 
impacts that sequestration may have on federal and contractor 
personnel at NNSA?
    Mr. Poneman. Yes, I will let Acting Administrator Miller 
offer more detail, but top line is it is a significant effect 
involving personnel and operations as well, but I can assure 
you, Congressman, is that the directive from the President is 
to do everything that we can and must do to protect our core 
functions. But I will ask Ms. Miller if she has got 
elaboration.
    Ms. Miller. I would just add to that. It starts with of 
course, we will protect the material, of course, we will do 
things safely. As long as we are allowed to operate, that is 
exactly how we will run things. Having said that, I think 
people have a tendency to look at sequestration in terms of 
numbers of people who might be furloughed or dollar numbers 
that might be missing. It is--what is a deeper concern at this 
point is the ongoing disruption to activities that will take 
projects and programs and make them difficult, if not 
impossible, to actually execute anywhere near to the plan and 
to the price and the need that has already been described. It 
is that ongoing uncertainty disruption, and then lack of 
ability to plan.
    Mr. Green. And I know that is impacting your agency, but it 
is also impacting----
    Ms. Miller. Everybody.
    Mr. Green [continuing]. Everybody.
    Have you already notified employees or contractors on they 
could face personnel actions?
    Ms. Miller. Contractors, their own organizations are 
responsible for talking directly to their employees, because 
they operate in general off of the money they are getting for 
us. We have, of course, worked with them to try to plan and 
program dollars so that they have some sense of what it is 
going to look like going forward month by month, and they are 
making plans and doing notifications accordingly, and I know 
our contractors have done that.
    As far as the federal workers are concerned, I sent a note 
out to our federal workers 2 weeks ago, almost 2 weeks ago, to 
let them know that we will do everything we can, but I cannot 
guarantee that it is not going to affect them either.
    Mr. Poneman. And I would only add, Congressman, that I have 
notified all the affected governors, and we will also work with 
the states in the same vein.
    Mr. Green. OK, thank you, Mr. Chairman.
    Mr. Braley. Would the Texas gentleman yield?
    Mr. Green. Sure.
    Mr. Braley. Mr. Chairman, Ms. Miller, a number of reports 
observed a culture within NNSA of prioritizing costs, cutting 
costs above the needs of security. As a follow-up to the 
question Mr. Barton asked, have M&O contractors throughout the 
complex been told to cut their security costs?
    Ms. Miller. They certainly have not been told to cut their 
security costs as any means of a policy, but I would say there 
is definitely messages that get communicated that when money is 
tight, people are looking for ways to cut costs and within an 
individual organization, a contractor organization are working 
with federal people, they may, as General Finan said, start to 
make decisions at very low levels on what their interpretation 
is of the need to cut costs.
    Mr. Braley. So it sounds like they could have been cut, so 
as a follow-up, have security funding allocations been reduced 
in recent years before the incident?
    Ms. Miller. Security allocations have come down over the 
last several years, that is right.
    Mr. Braley. Mr. Chairman, this is a concern I think that we 
had. Mr. Barton asked a similar question, and hopefully it is 
something that we can pursue. You know, I would be interested 
if security funding has been increased after the incident as 
well, but I think we will find that out later.
    Thank you, Mr. Chairman.
    Mr. Gardner [presiding]. Thank you. Gentleman yields back.
    Gentleman from Texas, Dr. Burgess, is recognized for 5 
minutes.
    Mr. Burgess. Well on the GAO report that was supplied for 
this hearing, there is a table, table one on page nine of the 
report, and you know, it is interesting in light of the last 
question that was just asked about the funding levels. I mean, 
this is a comparison of a GAO study done in May of 2003 and 
then the security task force in February, 2013, so essentially 
a decade worth of NNSA oversight. And you look at the various 
things that are listed there, the last one being allocating 
staff. In 2003, the GAO found NNSA had shortfalls in its site 
offices in number and expertise of staff, which could make it 
more difficult for site offices to effectively oversee security 
activities. OK, that sounds like a real problem identified by 
the GAO. So what did General Finan find 10 years later? The 
NNSA security function is not properly organized or staffed. It 
sounds like the same problem to me, stated another way.
    So you know, as interesting as this chart is, it really 
shows that the General Accountability Office's review of the 
NNSA security organization, when you look at it and go down the 
list and see the problems with defining clear roles and 
responsibilities, assessing site security activities, 
overseeing contractor activities, allocating staff in each and 
every case.
    So General Finan, you know, it begs the question, it is 
almost every problem that was identified 10 years ago, you 
encountered on your task force 10 years later. So what do you 
think? Are these longstanding cultural problems that are 
ingrained in the organization, or are these things that can be 
corrected?
    General Finan. Clearly they are long-term cultural basic 
issues that need to be fixed. And what happens over the years, 
as we looked at each one of those, reports would come out and 
people would check the box and say yes, I took care of the 
findings. What happened was people were nibbling around the 
edges, you know, they would put a body or two--oK, you have a 
shortage, so a body or two would change. You know, that would 
just create a shortage someplace else. They didn't ever stop 
and take a look at the overall system. How are we going to fix 
this long term? So by nibbling around the edges, instead of 
getting at the core issues, they just perpetuated the issues 
for a decade, and probably even longer than that, but every 
report that we looked at had striking similarities to what we 
found.
    Mr. Burgess. So let me just ask you this. This is a basic 
question. How is putting more money into a structurally 
deficient system, how is it going to make it better? I mean any 
amount of money--I agree that, you know, it is reasonable to 
look the funding levels, but for crying out loud, we have known 
about this stuff for 10 years and you haven't fixed it.
    General Finan. And fundamentally, you know, that is why I 
propose a change in the organization and change in the 
assessment model. Now I think that there are minor increases in 
budget that might be required, but we are not talking about, 
you know, hey, let's add a billion dollars to the security 
budget, because the issues that surfaced at Y-12 were 
structural within the organization and structural within the 
assessment model. Now there are other technical aspects of why 
the guard didn't respond properly, a whole bunch of things like 
that that are training related and things like that, but we 
are--when we are talking about the organizational structure, we 
are talking about some bodies. Yes, there is a shortage of 
security professionals, so you are talking a small number of 
additional bodies, and with the assessment model, you are 
talking about beefing up and changing the assessment model, but 
you are not talking about a massive influx of dollars.
    Mr. Burgess. Well, Chairman Upton in his opening statement 
said we need to learn the right lessons from past mistakes. I 
now certainly thank you for the effort that you have put into 
this. I just pray that 10 years from now another Congress is 
not having another hearing over the same sorts of failures.
    So Secretary Poneman, let me ask you. Back in 2010, 
Chairman Emeritus Barton was ranking member. He and I wrote to 
the Secretary expressing our concerns that the safety and 
security reform initiative would weaken outsource by 
outsourcing safety and security. We requested the General 
Accountability Office to evaluate--actually Chairman Waxman, 
who was chairman at the time and Ranking Member DeGette did 
join in that letter, so given the troubled history of safety 
and security in the complex, NNSA's problems of implementing 
its own security program, what was the Department's 
justification for embarking on this project?
    Mr. Poneman. It was clear at the time, Congressman, that we 
needed to focus, and you know the old saying, ``If you don't 
know where you're going, any road will take you there.'' So 
when I arrived at the Department, there were many people saying 
many different things. We said let's sit down and figure out 
what are we doing to be safe, what are we doing to be secure? 
That was the genesis of that reform. Our management principles 
say we will only succeed by continuous improvement. This was 
part of that process so it wouldn't just be mindlessly 
continuing to check the box, but being vigorous and aggressive 
and saying how do we be safe? I couldn't agree more with you, 
Congressman, in your premise that it ain't just throwing 
dollars at it, it is a deeply cultural thing, and that reform, 
which I know people have had some concerns about, was intended 
to be exactly part of the process that you are advocating in 
terms of a self-vigorous analytical process to get safe and to 
make people wake up, think, and be active about it.
    Mr. Burgess. Well, Mr. Chairman, I have got additional 
questions. I will submit those in writing. I thank you for the 
indulgence, and I will yield back.
    Mr. Gardner. Thank you. Gentleman yields back and the chair 
recognizes himself now for 5 minutes.
    General Finan, a question to you. In your testimony, you 
write that the NNSA is structurally inadequate to address 
security needs. You have made your recommendations. What 
percentage of those recommendations have either been 
implemented or on their way to implementation? Just give me a 
number, if you could.
    General Finan. At the time I left the organization, all of 
the recommendations were in process of being implemented.
    Mr. Gardner. Thank you.
    Additional questions to Ms. Miller, and this question was 
referenced earlier. The statement that Mr. Don Cook, NNSA 
Deputy Administrator for Defense Programs had made earlier, he 
said with regard to the relationship that we have and where we 
are between NNSA and its labs and plants, the statement was 
made ``eyes on, hands off.'' And I think one of the concerns 
that we have is this isn't just about management; this is about 
leadership, a culture of safety and security. And I am very 
concerned when it comes to the approach that NNSA, when they 
talk about ``eyes on, hands off,'' that this is actually a 
management style that is failing to provide the kind of 
leadership we need in safety and security. Would you agree or 
disagree with that?
    Ms. Miller. I think what is failing and what has failed is 
something I spoke a little bit about earlier, and that is it is 
one thing for people at a very senior level to talk at a very 
senior level and come out with phrases that they perfectly 
understand and they may be able to explain to the seven or 
eight people they talk to all the time about it. That is a very 
different thing if you are the person six, seven, eight layers 
down to understand what does that mean for the job you do every 
day?
    Mr. Gardner. And so you can see how that kind of creates a 
culture, though, that doesn't focus--that focuses more on 
management and less on leadership of a culture that is truly 
about safety and security.
    Ms. Miller. I think what happens is it leads everybody to 
focus whatever way they can to cope with what they think the 
person at the top is trying to tell them.
    Mr. Gardner. So what are you going to do to make that that 
is different?
    Ms. Miller. So as you know, right now I am acting 
administrator. What we have already begun in NNSA is a change 
in both the way we talk to staff and our contractors from the 
lower levels all the way up through the very top levels to be 
able to allow people to understand how they do--how they are 
meant to do what they do in a safe and secure way, and to 
understand that safety and security is not the job of the 
people--it is not just the job of the people in the uniforms or 
the guys who can discuss criticality safety in depth, it is 
everybody's job. It is what you do every day as part of what 
else you do every day.
    Mr. Gardner. Recognize it is about the leadership, not just 
management.
    Ms. Miller. Absolutely.
    Mr. Gardner. General Finan, in your testimony, you talked 
about tension between security and the conduct of operations, 
stating that the events at Y-12 illustrate how far the pendulum 
has swung too far in the wrong direction, and that NNSA must 
clearly and consistently emphasize the importance of security. 
Do you believe the tension between security and operations is 
inescapable, or do you think that strong safety and security 
culture can facilitate improved operations performance, given 
committed leadership?
    General Finan. I absolutely believe that safety and 
security can make operations better, and depending on how they 
are integrated, you will have a better operation. But it is a 
cultural change and it is a difficult cultural change.
    Mr. Gardner. Is the agency right now on the way to that 
cultural change?
    General Finan. They are trying to make that cultural 
change. Again, it is a long term. It will take years and 
constant pressure, constant attention.
    Mr. Gardner. Adequate progress, in your mind?
    General Finan. They are making early steps. Early steps. It 
is going to take a long time.
    Mr. Gardner. But adequate process not quite ready to say 
that?
    General Finan. I am not quite ready to say that.
    Mr. Gardner. Ms. Miller, do you agree with General Finan 
that there has been a culture of compromise at NNSA?
    Ms. Miller. Yes.
    Mr. Gardner. And what are you doing to eliminate that 
culture?
    Ms. Miller. That is a culture that I think not 
intentionally, but definitely effectively, has permeated both 
the contractor and the federal side of it, and that is a 
question of leadership making clear what the expectations are 
for all concerned.
    Mr. Gardner. And you believe you have taken the sufficient 
steps so that your senior managers understand that there must 
be consistent messaging on security?
    Ms. Miller. I think through a number of actions that have 
been taken, including the shakeup in management of security, 
that message has been very clearly communicated as to what is 
expected of everyone.
    Mr. Gardner. And can you tell the committee today, all of 
us on the committee, that the head of defense programs, the 
head of the budget, the federal site managers, your managers, 
all are now singing from the same hymnal, so to speak?
    Ms. Miller. I can tell you that they know they better be. I 
can't swear for another person, but I believe it to be the 
case.
    Mr. Gardner. And have you committed--this information that 
you are talking about now, you have communicated it simply--
supply the committee with memoranda or other communications 
instituting your policy for emphasizing that security?
    Ms. Miller. Yes.
    Mr. Gardner. Thank you. I appreciate your time, and with 
that, I don't see any other witnesses, so I will give the gavel 
back to the chairman.
    Mr. Murphy. Thank you.
    We are going to dismiss this panel and move on to the next 
one. I do want to thank you all for your candid and thorough 
response, and this is extremely important to see leadership 
being honest with us. So we look forward to working with you 
more and talking with you more, and General, a special thanks 
to you for your report. Good luck over there, keep that Air 
Force in line. Thank you, ma'am.
    We will wait for the next panel to come forward.
    Ms. DeGette. Chairman, maybe we can just put her in charge 
of everything.
    Mr. Murphy. Well ma'am, I am Navy so we will have to 
discuss that.
    Well, while this next panel is getting ready, I will start 
off by introducing them in the interest of time as we move 
forward. We have with us Mr. C. Donald Alston, Major General, 
United States Air Force (retired), and former commander of the 
20th Air Force Global Strike Command, and Commander Task Force 
214 U.S. Strategic Command, Francis E. Warren Air Force Base in 
Wyoming. We also have Mr. Richard Meserve--am I pronouncing 
that right, sir?
    Mr. Meserve. Meserve.
    Mr. Murphy. Meserve, thank you, President of the Carnegie 
Institution for Science, and former Chairman of the U.S. 
Nuclear Regulatory Commission from 1999 to 2003. We also have 
Mr. David Trimble, the Director of Natural Resources and 
Environment Team, Government Accountability Office. Welcome 
here today.
    As you know, the testimony you are about to give is subject 
to Title XVIII Section 1001 of the United States Code. When 
holding an investigative hearing, this committee has a practice 
of taking testimony under oath. Do you have any objection to 
testifying under oath?
    They all agree to testify. The chair then advises you that 
under the rules of the House and rules of the committee, you 
are entitled to be advised by counsel. Do you desire to be 
advised by counsel during your testimony today?
    They all decline counsel.
    In that case, if you would please rise, raise your right 
hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. I note for the record all the 
witnesses have answered in the affirmative.
    You can now give a 5-minute summary of your written 
statement. We will start with you, Dr. Meserve.

     TESTIMONY OF RICHARD A. MESERVE, PRESIDENT, CARNEGIE 
INSTITUTION FOR SCIENCE; C. DONALD ALSTON, MAJOR GENERAL, USAF 
 (RETIRED); AND DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

                TESTIMONY OF RICHARD A. MESERVE

    Mr. Meserve. Mr. Chairman, Ranking Member DeGette, and 
members of the subcommittee, I am very pleased to appear before 
you this morning to testify of the security at DOE complex.
    My involvement with this issue, and I believe General 
Alston's as well, arose as the result of a request that was 
made by Secretary Chu that we, as well as Dr. Norm Augustine, 
undertake an evaluation of basically the structure for the 
management of security at DOE. We undertook a study that 
involved visiting sites, reviewing documents, interviewing 
people, and as a result of all of that effort, we submitted 
three separate letters to the Secretary on December 6 of 2012, 
and we have submitted copies of those letters for the record as 
our testimony.
    We did not purport to investigate the factual circumstances 
surrounding the Y-12 institute. Our reports focused on 
management-related issues, and I hasten to add that our report 
was a snapshot in time. I was learning a lot about what has 
happened at DOE since we conducted our interview from the very 
informative testimony that we have all benefitted from earlier 
this morning.
    There are a couple of points from my letter that I think I 
would like to emphasize that I see as clear issues that DOE 
should confront. I believed that on December 6, and I believe 
they are confronting them. One, and I think a critical one, is 
to make sure you have a management structure in place that 
assigns clear authority and responsibility for security. One of 
the underlying factors at the Y-12 incident is there was a 
division of responsibility and without anyone being truly in 
charge until you had a situation with a contractor responsible 
for the guards and a different contractor responsible for the 
security-related equipment and the cameras, and they weren't 
communicating well and a lot of the equipment was out of 
service and each could point at the other.
    I also came to the conclusion--and I will let General 
Alston speak for himself--that the federal oversight needed to 
be improved. It was--serious security issues existed before 
this episode and no one at DOE that we saw was really on top of 
detecting them and correcting them.
    There was issues associated with the protective force, 
ensuring appropriate training. There was an issue associated 
with the, obviously, the behavior of the first responder. There 
were many issues associated with the protective force that need 
to be addressed. We need to find a clear trajectory for these 
people. We need to make sure that they have a sense that they 
are an important part of the team and integrated with the team.
    I think that all of us came to the view--and this has been 
emphasized this morning--that one of the things needs to change 
is the culture. There has to be a security culture that places 
both safety and security as highest priorities, and that 
management by its word and deed reinforces that, and that 
everyone at the site realizes that it is their individual 
responsibility to assure security, and that clearly is 
something that has been failing.
    And finally, I think what I would add is a need for 
balance. Clearly, this episode reflected issues associated with 
physical security, but there are other security issues that 
confront the Department, and in order to recognize, you need a 
balance. There are cybersecurity issues, there are personnel 
security issues, all of which need to be functioning, and one 
ought to not, because it was an episode of physical security, 
focus solely on that.
    My views are explained more fully in the letter that was 
submitted as part of the record, and I welcome the opportunity 
to talk to you this morning.
    Mr. Murphy. Thank you. General, I promised you I would have 
you go first. I apologize for the confusion there, but you are 
recognized now for your opening statement.

                 TESTIMONY OF C. DONALD ALSTON

    General Alston. Mr. Chairman, Ranking Member DeGette, 
members of the subcommittee, I would only briefly amplify what 
my colleague has so well described as Mr. Augustine's, Dr. 
Meserve's, and my efforts on behalf of Dr. Chu and the 
Department of Energy. I would only amplify one particular 
point, and that would be the culture piece.
    We have talked this morning--the first panel engaged you in 
conversation using some of the expressions that we found to be 
of concern, ``eyes on, hands off'' for example, and that 
expression is something that came out of just the last couple 
years of policy changes. But as has been reinforced over and 
over again, the recurring challenges, the similar recurring 
challenges, go beyond the ``eyes on, hands off'' policy 
emphasis that had occurred over the last years, and I think 
that at the center of the challenge for the Department is the 
cultural change. And one aspect of the cultural change that 
is--that feeds the cultural challenges is the distributed 
management, the way the Department distributes its management 
across its labs, and the labs prefer and are very successful in 
their pursuit of the distance between the headquarters and the 
labs themselves, and the freedom of movement that they have, 
and this has great value, I would concede, on the science 
piece, but I think that that contributes--the security, in 
fact, needs to have more central--management central emphasis, 
common standards, and what I have observed is that you see 
people talk about mission, which I read as science. People talk 
about safety, and there is more of a pervasive safety culture, 
if you will. But security is not everybody's responsibility, 
and it is as if mission, safety, and security are in a trade 
space where when there is an emphasis on security because of an 
episodic failure, the other elements of mission and safety see 
the focus on safety as to be marginally at the expense of the 
other parts of the mission, as opposed to looking at it as an 
enterprise challenge, and that, in fact, they don't share trade 
space with each other, but in fact, are all essential every day 
to mission success.
    And with that, I thank the committee for the opportunity to 
have dialogue this morning.
    [The joint prepared statement of General Alston and Mr. 
Meserve follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Murphy. Thank you very much.
    Mr. Trimble, you have a chance for an opening statement.

                 TESTIMONY OF DAVID C. TRIMBLE

    Mr. Trimble. Thank you, Chairman Murphy, Ranking Member 
DeGette, members of the subcommittee. My testimony today 
discusses DOE's and NNSA's management of the nuclear security 
enterprise, and will focus on security, safety, and project and 
contract management.
    Multiple investigations into the security breach at Y-12 
identified significant deficiencies in NNSA's security 
organization, oversight, and culture. In response to the Y-12 
security incident and the findings of these reports, DOE and 
NNSA have taken a number of actions, including repairing 
security equipment, reassigning key security personnel, and 
firing the Y-12 protective force contractor. More recently, DOE 
and NNSA's leadership committed to additional actions, such as 
revamping the security oversight model. We have not evaluated 
these recent actions but will examine them as part of our 
ongoing review on security reform for this committee.
    The key question underlying this work will be whether DOE's 
actions to address the security breakdowns at Y-12 will produce 
sustained improvements in security across the nuclear security 
enterprise.
    DOE has a long history of security breakdowns and an 
equally long history of instituting responses and remedies to 
fix these problems. The recent testimony the leader of the NNSA 
security task force examining the Y-12 incident identified 
problems at NNSA's federal security organization, including 
poorly defined roles and responsibilities for its headquarters 
and field staff, inadequate oversight and assessments of 
secured activities, problems ensuring that security 
improvements are implemented, and failing to ensure adequate 
staffing. Notably, in 2003, we reported on these same problems, 
problems which have persisted or resurfaced, notwithstanding 
numerous DOE initiatives to fix or address them.
    In examining the security incident at Y-12, it is also 
important to remember that NNSA's security problems have not 
been limited to Y-12. In March of 2009, we reported on numerous 
and wide-ranging security deficiencies at Livermore, 
particularly in the ability of Livermore's protective forces to 
ensure the protection of special nuclear material and the 
laboratory's protection control of classified material. We also 
identified Livermore's physical security systems, such as 
alarms and sensors, and its security assurance activities as 
areas needing improvement. Weaknesses in Livermore's contractor 
self-assessment program and the Livermore site office's 
oversight of the contractor contributed to these security 
deficiencies at the laboratory.
    Los Alamos experienced a number of high profile security 
incidents in the '90s that were subject to numerous 
congressional hearings, including some held by this committee. 
Subsequently, security evaluations through 2007 identified 
other persistent systemic security problems, including 
weaknesses in controlling protecting classified resources, 
inadequate controls over special nuclear matter, inadequate 
self-assessment activities, and weaknesses in the process Los 
Alamos uses to ensure that corrects identified security 
deficiencies. In October of 2009, we found weaknesses at Los 
Alamos in protecting the confidentiality, integrity, and 
availability of information stored on and transmitted over its 
classified computer network.
    Regarding safety, in September of 2012, we testified before 
this subcommittee, noting that DOE's recent safety reforms may 
have actually weakened independent oversight. Notably, since 
this recent testimony, reports by DOE and the safety board have 
continued to identify safety concerns at Y-12, Pantex, and Los 
Alamos.
    Regarding project management, DOE has made progress in 
managing the costs and scheduled non-major projects, those 
costing less than $750 million, and in recognition of this 
progress, GAO has narrowed the focus of our high risk 
designation to major contracts and projects. Major projects, 
however, continue to pose a challenge for DOE and NNSA. In 
December of 2012, we reported that the estimated cost to 
construct the waste treatment and immobilization plant in 
Hanford, Washington, had tripled to $12.3 billion since its 
inception in 2000, and the scheduled completion date had 
slipped nearly a decade to 2019. Moreover, we found that DOE 
had prematurely rewarded the contractor for resolving technical 
issues and completing work. We have reported on similar 
problems with the CMR facility at Los Alamos, the EPF project 
at Y-12, and the MOX project at Savannah River.
    In conclusion, over a decade after NNSA was created to 
address security issues, the Y-12 security incident has raised 
concern that NNSA has still not embraced security as an 
essential element of its mission. The numerous actions that DOE 
and NNSA are taking to address its security problems will 
require effective implementation across the complex. Without 
this and strong and sustained leadership, these recent reforms, 
like past efforts, may not have a lasting impact on the 
security, performance, or culture of the agency.
    Thank you. I would be pleased to answer any questions you 
may have.
    [The prepared statement of Mr. Trimble follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Murphy. Thank you. We will go through these quickly.
    I want to start off. Dr. Meserve, one of the messages from 
your work and General Alston's work is the lack of an embedded 
security culture from DOE headquarters on down through the 
various nuclear weapons complex facilities. As a former 
chairman of the Nuclear Regulatory Commission, you have 
experience with embedded safety culture. Am I correct on that?
    Mr. Meserve. That is correct.
    Mr. Murphy. And the lessons--what lessons, from your 
experience of NRC regulation of the civilian nuclear industry 
can apply to establishing strong security culture at DOE's 
facilities and operations? Can you give us an example?
    Mr. Meserve. Well, let me say that I think that perspective 
of the NRC has been that a safety culture is the critical 
foundation for ensuring the safe operations of the plants. That 
without that commitment, you have a problem that in regardless 
of how detailed the requirements are, ultimately you have to 
demand the people fulfill their obligations and take 
responsibility, and the safety culture, which is something that 
affects everyone in the plant, is the foundation.
    So I came to this project with that perspective, and I 
think that, as has been mentioned, and General Alston 
emphasized this in his remarks, is that culture is the critical 
ingredient, and that is something that has to change to have 
something that will be sustained over time. People see this as 
responsible as their clear responsibility at every level at the 
facility and at headquarters.
    Mr. Murphy. And that is the same as sustained training for 
security personnel, I am assuming?
    Mr. Meserve. It means sustained training. It means a 
responsibility of everyone in the plant, when they see a 
problem, to raise that issue up. If their immediate supervisor 
doesn't take it up, it means going above that person. It means 
having a system in place so that no one is--faces any 
discipline or discrimination as a result of the fact that they 
have raised an issue like that. It is people to be rewarded if 
they take initiative to respond. And that is the sort of thing 
you need in the security area as well.
    Mr. Murphy. Thank you.
    General Alston, you stated in your report that nuclear 
weapons sites leverage their unique missions and geography to 
justify a preferred, what you called ``alone and unafraid'' 
mantra, and that DOE and NNSA headquarters has employed a 
largely hands off response. What do you mean by ``alone and 
unafraid?''
    General Alston. Mr. Chairman, at Y-12 specifically, earlier 
in the year, earlier in calendar year 2012, the site security 
apparatus had upgraded their security system, and they--there 
was a multi-$100 million option, and this was still a very 
expensive option of, I can't remember, $60 to $70 million. And 
so they went forward with this $60 to $70 million modification 
to their overall security capability at the site, but when they 
deployed that capability early in the year, it had flaws that 
needed to be worked out, and that was widely known, but they 
operated anyway, generated hundreds of alarms, false alarms or 
nuisance alarms a month, conditioned the force, I would argue, 
to not respond with urgency because they were being conditioned 
that the alarms are systemic shortcomings. There was--they 
moved towards the accounting for the alarms and less running to 
the sounds of the guns, which I think was manifested on the 
morning of July 28, because of the delayed response, because it 
was another false or nuisance alarm, if you will. And in that 
whole effort, though, was--from my perspective--was Y-12 saw a 
way to improve its security, and in my view, I saw evidence 
they conceived, designed, developed, and deployed this 
capability at Y-12, defending their unique geographical 
challenges to secure that facility, and in making their, if you 
will, one off approach to this, to be dominant between the 
relationship between Y-12 and the headquarters. And so there 
was not evidence of a strong, disciplined, central management 
of security modifications so that the field can, soup to nuts, 
take a look at what they determined to be shortcomings, and 
then worked the solution set on their own without what I think 
is more appropriate, a good operational test evaluation program 
where someone is accountable in the headquarters for the next 
gate you go, and that nobody lives with a sub-optimized system 
that is not operating perfectly on day one.
    Mr. Murphy. Is this systemic across NNSA?
    General Alston. Well, we found a different approach at 
Pantex. I can't tell you the current state of this, so maybe 
Dr. Meserve can amplify this, but the ARGOS system, and I can't 
tell you what the acronym stands for, but it is a comprehensive 
security approach that is present at all of their sites. But 
depending on how you manipulate part of the overall ARGOS 
architecture at your particular site, they may not be precisely 
identical at each one of the facilities. So as these folks were 
trying to integrate the changes to their security apparatus and 
blend in to this ARGOS concept, there is so much freedom of 
movement at each one of the sites that I think there is great 
opportunity being missed trying to centralize common standards 
and force a common approach and making the sites defend being 
different than the common approach, as apposed to right now, 
which is give them the benefit of the doubt that they need to 
support the one off approach and that the common standards get 
subordinated to the unique approach. I don't know if I said 
that right.
    Mr. Murphy. Thank you. That helps a lot, but as this goes 
through, I can't help, as I am hearing these stories about 
security issues, too, of the people watching the radar on Pearl 
Harbor on December 7 said oh, pay no attention to those blips, 
that is just probably our planes coming over, or on 9/11. These 
things continue on, and hope that the security force is not 
going to just look past these things. I mean, to recognize a 
situation like this, as Mr. Meserve, you put in your letter 
that sometimes training of terrorists is to look 
nonthreatening, and you have to be ready for deadly force, and 
this could have ended up in a deadly situation, and we are 
hoping these things are avoided in the future.
    I am out of time. I am going to go Ms. DeGette now from 
Colorado.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Trimble, when you were reciting the whole litany of 
problems that we have had with the various labs, it was like I 
was reliving my congressional career. So I want to ask you, 
have you read General Finan's report?
    Mr. Trimble. Yes, I have.
    Ms. DeGette. And what is your opinion of her 
recommendations?
    Mr. Trimble. You know, all the recommendations sound sound. 
We have not done a full evaluation or anything of that nature. 
I think our reaction to the reports, as well as the actions DOE 
has already taken is sort of the proof is in the pudding.
    Ms. DeGette. Yes, so you think it is a good direction, but 
you want to make sure it gets implemented?
    Mr. Trimble. Yes, and I think even more than that, it would 
be where is the implementation plan?
    Ms. DeGette. Right.
    Mr. Trimble. So we have got a lot of oK, we are going to do 
this, we are going to do that, but where is the DOE summary of 
all of these efforts saying hey, this is our assessment of all 
this good work these people have done, and here is our plan 
with metrics and dates and who is accountable going forward.
    Ms. DeGette. OK. And General, have you read General Finan's 
report?
    General Alston. No, ma'am, I have not.
    Ms. DeGette. OK.
    General Alston. Her report was in draft while we were 
essentially commissioned by Secretary Chu.
    Ms. DeGette. Are you familiar with her recommendations?
    General Alston. I am familiar with a lot of them. I 
couldn't recite them for you.
    Ms. DeGette. I am not asking you to. Good news, I only have 
5 minutes.
    So my question, though, is do you think she is going in the 
right direction with her recommendations, based on your 
assessments?
    General Alston. I do. Where I was encouraged particularly 
by her approach was trying to certainly recognize the field 
shortcomings, but the headquarters chain----
    Ms. DeGette. Right.
    General Alston [continuing]. Needs to be fixed, and it 
needs a solid focus on it.
    Ms. DeGette. It needs to be clarified, right?
    General Alston. Absolutely.
    Ms. DeGette. Yes, what about you, Dr. Meserve?
    Mr. Meserve. My response would be the same.
    Ms. DeGette. OK. Now every few years--I alluded to this in 
my previous questioning. Every few years, some in Congress 
suggest that NNSA should be autonomous. From oversight last 
year, the House passed the National Defense Authorization Act 
that included a provision providing additional autonomy from 
oversight by this committee, for example, for NNSA. Luckily, 
this language was not in the final law and part of our job is 
to make sure that we have adequate oversight, so we are glad it 
wasn't in the final law. I think, and all of us on this 
committee think, the Y-12 security breach shows that the NNSA 
is simply not ready for that level of autonomy that the 
National Defense Authorization Act contemplated.
    So General, I want to ask you and Mr. Meserve, were any of 
the issues you identified caused by a lack of autonomy for 
contractors and those who worked for Y-12? Were they caused by 
a lack of autonomy?
    General Alston. I would say that the consequence of the 
relationship between the semi-autonomous nature of NNSA and the 
Department of Energy did cause a conflict in ambiguity for 
policy, and so, the NNSA was dependent upon Department of 
Energy apparatus for independent inspection by HSS and the 
Inspector General properly so.
    Ms. DeGette. So what you are saying is the autonomy that 
they had actually caused some of the problems?
    General Alston. That they didn't have sufficient autonomy 
for them to be exclusively accountable for the failure.
    Ms. DeGette. OK, and that was because they were partially 
reporting to DOE?
    General Alston. Because the field would look up the chain 
of command, and there were limits to how beholden they were to 
the NNSA because certain policy elements were the purview and 
domain of organizations in the headquarters that were outside 
the----
    Ms. DeGette. So it was because it wasn't fish or fowl, they 
were semi-autonomous, right?
    General Alston. Yes, ma'am, and Dr. Meserve may have a 
better way to say this from our perspective.
    Ms. DeGette. Dr. Meserve?
    Mr. Meserve. I think that part of the problem was not the 
autonomy of NNSA but the fact that there is a very confusing 
structure.
    Ms. DeGette. Within the agency.
    Mr. Meserve. If something was simplified and then clear 
lines of authority and responsibility is what is necessary.
    Ms. DeGette. Right.
    Mr. Meserve. That could be done with an autonomous NNSA. It 
could be done with the current structure, but having clear 
guidelines of who is in charge of what.
    Ms. DeGette. The problem wasn't--yes, I got you. The 
problem wasn't whether it was autonomous or not, the problem 
was there wasn't a chain of command.
    I want to ask you very quickly, Mr. Trimble, do you think 
that--does the GAO believe that NNSA's issues can be solved 
through a simple structural change?
    Mr. Trimble. We have previously testified that we do not. 
We think the issues that need to be addressed can be done with 
the current structure, and again, it is cultural changes, 
sustained effort.
    Ms. DeGette. Thank you.
    Mr. Murphy. The gentlelady yields back.
    Now recognize the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and gentlemen, thank 
you for being with us today.
    Dr. Meserve, if the Department of Energy office responsible 
for independent oversight is subjected to political retaliation 
for conducting that oversight, how would that impact their 
ability to remain objective and independent, in your view?
    Mr. Meserve. Well I mean, the obvious danger is that if 
they are being criticized for doing their job that they will 
then back off doing what they are supposed to be doing. And so 
I think that that would be unfortunate, that if they didn't 
have a clear view of what their obligations were and their 
mission is.
    Mr. Johnson. OK. General Alston, what is your view of the 
importance of independent oversight?
    General Alston. I think that it is appropriately integrated 
in a mosaic of sensors and indicators to tell you how sturdy 
your readiness, or in this case, the quality of the security. I 
think that if you move too much towards depending on 
independent inspection and evaluation, you are missing great 
opportunity to have--to defend yourself against crisis. You are 
focused on defending against crisis and ultimate failure, but 
you are not taking advantage of building routine relationships 
and seeing whether or not your organization has the capacity to 
recognize failure when the conditions begin to present 
themselves. If you need someone outside to tell you how ready 
you are, you may not have the skill yourself to know yourself. 
So I believe it needs to be a mosaic of inputs that are 
converging at the right level to give the leadership at the 
local, intermediate, and the higher levels the competency and 
the confidence in just what the quality of the performance of 
the unit is.
    Mr. Johnson. I couldn't agree with you more, and it is 
analogous to--I know in my 26\1/2\ year career in the Air 
Force, you have your unit mission, you have standards and 
evaluation who are the internal looks, eyes, and ears to make 
sure that you are following those rules, but you also have the 
Inspector General who takes a look from the outside, and both 
are very, very important.
    Back to the issue, though, of political retaliation. To 
both of you, what impact would political retaliation have on 
safety and security, the culture of safety and security? You 
mentioned, Dr. Meserve, that people would just stop.
    Mr. Meserve. Well, you need to have a system that 
reinforces the priority that is to be given for safety and 
security, and that anything that interferes with the capacity 
for people to have a willingness to confront those issues 
honestly and to address them thoroughly is a detriment to 
achievement of safety and security. And that could be through 
political process, through fear of retaliation by a superior, 
there is any number of things that could affect it, but the 
point here is to keep your eye on the ball and anything that 
distracts you from that is a negative factor.
    Mr. Johnson. Sure.
    Mr. Meserve. And I couldn't agree more with General Alston 
is that one ought not to anticipate that you are counting on 
oversight function as your primary means to prevent shortfalls. 
That responsibility has to be in the line organization that is 
responsible for the job, and they should be held accountable 
for it. The oversight is a protective mechanism to make sure 
that they are fulfilling their function adequately and 
appropriately.
    Mr. Johnson. Absolutely.
    General Alston. And sir, I would add just one point, and 
that is if you don't have at a grass roots level the kind of 
environment where the folks will come forward to expose 
weakness and challenge, you are not going to get to the self-
critical culture--the level of self-critical culture that you 
really need in this business where the stakes are so high.
    Mr. Johnson. Yes, I couldn't agree with you more.
    General, given the site's, I quote, ``alone and unafraid'' 
posture, how important, in your opinion, are standardization, 
benchmarking, and best practices to achieving and sustaining 
high security levels?
    General Alston. Sir, clearly they feed every day. When you 
can, on a routine level, have the lines of communication 
sufficiently open where there is collaborative process, and 
standards don't have to be issued from above, there can be 
collaboration. It builds trust, it builds flow of information 
up and down the chain. Myself and Mr. Augustine came to the 
conclusion that the federalization of the correct protective 
force should be given serious consideration, and the reason--I 
am a unity of command guy, and that creates a seam with the 
operator, who is enriching uranium or whatever the other part 
of the mission would be, and so it is a little odd for me to 
have come down on this side. But for precisely the reasons of 
standardization and more centralized control and impact that I 
felt that that would be one means by which that could be 
achieved.
    Mr. Johnson. Well thank you. Mr. Chairman, I actually do 
have one more question, if it would please the chair that I 
could ask it, otherwise I will yield back.
    Mr. Murphy. We will give you an additional minute.
    Mr. Johnson. OK.
    General Alston, one final question. General Finan's task 
force noted a distinct bias against finding and stating 
performance criticisms. You stated your belief that one of the 
attributes of a security organization is, and I quote, ``an 
absolute intolerance for shortfalls, deficiencies, outages 1 
minute longer than necessary.'' What must happen for NNSA to 
transition from General Finan's assessment to the attribute 
that you describe?
    General Alston. I played an active role as the Air Force 
was recovering from its epic failures. I was required to 
produce a road map, and there were a lot--obviously we were on 
fire, and there were a lot of activities that had to go on 
there. But one of the things that we instituted was to find 
structural mechanisms to prove leadership commitment, and so 
the Chief and Secretary created a nuclear oversight board that 
met quarterly, and it was a forum where everyone with nuclear 
equities at the senior level would meet. But it was a forum 
where you could expose whatever level of detail that you wanted 
to expose, and in the case of the failure that we saw at Y-12, 
it wouldn't require so much the senior levels at NNSA, but 
there needs to be a process where the connection is reinforced 
so that you are tracking outages to the right level, and for 
example--or equipment shortages, and that there is a recurring 
forum so that routine interaction can fortify commitment to the 
security part of the enterprise.
    Mr. Johnson. Thank you, General.
    Mr. Chairman, I yield back.
    Mr. Murphy. All right, now recognize the gentleman from New 
York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    The obvious major part of NNSA's work is security, but 
equally important is providing their employees with a safe 
working environment. The consequences of safety failures are 
serious and for example, in October of '07, GAO reported that 
nearly 60 serious accidents or near-misses had occurred at 
NNSA's national labs since 2000. Just to give one example, GAO 
described a 2004 accident where a student working at the NNSA 
facility at Los Alamos was blinded in a laser accident.
    Mr. Trimble, you had indicated in your testimony that GAO 
has been conducting assessments of safety at NNSA for quite 
some time, and while I heard some of the results being 
mentioned here, I am more--I would like to know, more 
importantly, how the agency is fairing. Are they getting better 
at addressing safety concerns?
    Mr. Trimble. I would like to say yes, but as of now, I 
can't say that our work is showing that. I think one of the 
things that is relevant to the discussion today that ties into 
the safety and security reform initiatives from 2010 is we have 
previously reported that those initiatives did not address our 
concerns previously expressed regarding the safety culture at 
NNSA and specifically, we noted that some of those reforms we 
viewed weakened federal independent oversight by making HSS's 
role sort of more of a ``Mother, may I'' in terms of being able 
to come in and inspect facilities. And I think in our testimony 
as well, we note since our last testimony on these matters in 
the fall, there have been numerous other safety incidents that 
have been reported. So our concerns necessarily continue.
    Mr. Tonko. Thank you. You also made mention, and I will 
quote, that ``they have not demonstrated sustained improvements 
in terms of their safety reforms.'' Can you tell us about 
NNSA's recent efforts to reform those measures in terms of 
safety protocols?
    Mr. Trimble. I don't know about protocols, per se. I think 
the 2010 safety initiative, the reform initiative, you did a 
lot to--there is a lot of good in there in terms of 
consolidating or rationalizing directives, et cetera. Again, as 
I noted, we saw problems with it, but as with security, the 
issue is one of sustainment. You go through these same periods 
of an accident happens, it gets attention, you have remedial 
measures, and then attention wanes and you go through the same 
cycle once again.
    Mr. Tonko. So then what should the agency do or be doing to 
promote or improve worker's safety?
    Mr. Trimble. Well, I think again it is--one, it is a 
continued and sustained effort in addressing sort of a cultural 
issues that have crept in. I think you see, just as in security 
where you have the divide between headquarters and the field 
units, there is a divide there in terms of the importance and 
differing perceptions, perhaps, of the level of importance this 
sort of mission holds.
    Mr. Tonko. And in terms of any oversight protections?
    Mr. Trimble. In terms of oversight? Well, independent--
clearly, we haven't been on the record in terms of having 
robust independent oversight, much like in the security realm, 
so bolstering the role of HSS in that regard I think is 
essential.
    Mr. Tonko. OK. I will yield back, Mr. Chair.
    Mr. Murphy. Thank the gentleman, and I want to say that for 
all the panelists, I thank you today, both panels. I also want 
to note that certainly at times like this when we have hearings 
about security issues, security breaches, there are those who 
want to see where weaknesses are. They certainly take note of 
the comments made, and we recognize a lot of the things are 
being done for security remain certainly in the classified 
levels. But in a situation like this, I think it gives the 
ranking member and I and members of both sides of the Aisle 
confidence to know that actions are being taken, because in a 
world where terrorists on any level may take action against our 
interests at site such as this or other ones, that our Nation 
will be strong and stand up and prevent problems in the future 
with this. And so we thank you for your comments and good 
Americans to help us with that security.
    I ask unanimous consent that the contents of the document 
binder and all the Majority memos be introduced into the 
record, and authorize staff to make appropriate redactions. 
Without objection, the documents will be entered into the 
record with any redactions the staff determines appropriate.
    [The information appears at the conclusion of the hearing.]
    Mr. Murphy. And in conclusion, again, thank you to all the 
witnesses. I remind members they have 10 business days to 
submit questions for the record, and I ask all the witnesses 
agree to respond promptly to the questions.
    This committee is now adjourned. Thank you.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
